<html>
<title> - U.S. SECURITY INTERESTS IN EUROPE</title>
<body><pre>[Senate Hearing 107-91]
[From the U.S. Government Printing Office]





                                                         S. Hrg. 107-91

                    U.S. SECURITY INTERESTS IN EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 20, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                    U.S. GOVERNMENT PRINTING OFFICE
073-350 DTP                 WASHINGTON: 2001




                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         CRAIG THOMAS, Wyoming
BARBARA BOXER, California            BILL FRIST, Tennessee
ROBERT G. TORRICELLI, New Jersey     LINCOLN D. CHAFEE, Rhode Island
                                     SAM BROWNBACK, Kansas
                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     3
Powell, Hon. Colin L., Secretary of State, Department of State, 
  Washington, DC.................................................     7
    Prepared statement...........................................    12
    Responses to additional questions for the record from Senator 
      Jesse Helms................................................    43
    Responses to additional questions for the record from Senator 
      Bill Nelson................................................    44

                                 (iii)

  

 
                   U.S. SECURITY INTERESTS IN EUROPE

                              ----------                              


                        WEDNESDAY, JUNE 20, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met at 10:01 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Joseph R. Biden, Jr., (chairman of 
the committee) presiding.
    Present: Senators Biden, Dodd, Kerry, Feingold, Wellstone, 
Helms, Lugar, Hagel, Gordon Smith, and Chafee.
    Also present: Senator Bill Nelson and Senator Allen.
    The Chairman. The hearing will please come to order.
    Mr. Secretary, welcome.
    Secretary Powell. Thank you, sir.
    The Chairman. It is a delight to have you here. I have a 
brief opening statement. Then I am going to yield to the 
chairman, and I assume he has a statement. I understand you may 
have some guests whom you may want to introduce to us.
    I am pleased to welcome Secretary of State Colin Powell to 
our committee today to report on the President's trip to Europe 
and to participate in a broader discussion of U.S. security 
interests in Europe and the future of our transatlantic 
relationship.
    At the outset, let me say that I was very heartened by 
President Bush's trip. He had an opportunity to engage in a 
candid and substantive dialog with our European friends, and he 
was kind enough over the weekend to call me and brief me in 
some more detail, which was very kind of him.
    I was telling the Secretary in there, Mr. Chairman, that I 
received the call while I was out watering plants, trying to 
stretch 200 feet of hose to get to some trees I had planted. My 
daughter, who is 20 years old and was home for the weekend, 
came out and said ``the President is on the phone.'' I said, 
that I would be there in a second. We all know when the 
President calls, that means the White House operator is on the 
phone. And she said, ``no, Daddy, come now. The President is on 
the phone.'' I said, honey, I will be there in a second. She 
said, ``Daddy, I have taken enough calls from Presidents to 
know, this is the President. He is on the phone.''
    And he was on the phone.
    So, I want to publicly apologize for keeping the President 
waiting while I watered my trees, although he said something to 
the effect, that he hoped I was not watering them too 
liberally.
    But at any rate, I appreciate the fact that the President 
and the administration and Dr. Rice, along with the Secretary, 
have been so forthcoming and informative about the trip, and I 
am anxious to hear more.
    Despite the remarkable progress that the 15 members of the 
European Union have made in creating in Europe, in the EU's 
phrase, ``an ever closer union,'' the fact remains in my view 
that it is the United States that still plays the key role 
necessary to mobilize Europe on tough security questions.
    Thus, I was pleased with the President's speech in Warsaw 
declaring that the United States is an ally and is strongly 
committed to support for further NATO engagement in next year's 
Prague Summit and that he believes that the zero option is not 
an option. In addition I agree with him when he says that at 
least one country must be admitted to membership next year.
    Equally important, no arbitrary red lines on membership 
should be drawn by non-members. NATO must and will be open to 
all European democracies that are ready to handle the 
responsibilities that accompany the membership in the alliance. 
I compliment the President for his very strong and very clear 
statement.
    This proactive U.S. leadership of NATO, however, should not 
be limited in my view to this enlargement. Last week's Foreign 
Relations Committee hearing on the crisis in the former 
Yugoslav Republic of Macedonia strengthened my belief that the 
United States, Mr. Secretary, has to play a more active and 
engaged role in the efforts to forge a political solution 
there. The President indicated to me Sunday that you are on 
your way to doing that, and I am anxious to hear in what way.
    I was somewhat confused by unconfirmed newspaper reports 
last weekend that the administration decided not to commit any 
American troops to a NATO-led force requested by the Macedonian 
President to disarm ethnic Albanian insurgents after a peace 
agreement is reached, if one is reached.
    As I have said before, the events in Macedonia today have a 
sense of history repeating itself. As the old joke goes, we 
have been there and done that in Croatia in 1991, in Bosnia in 
1992, and in Kosovo in 1998. In my view we cannot afford once 
again to watch and wait to see how a low-level Balkan crisis 
erupts into all-out warfare.
    A limited NATO involvement now to pacify this extremely 
delicate and volatile situation may avoid the need for more 
extensive and difficult intervention later on.
    I am told that our British allies are prepared to commit 
troops to a limited peace enforcement mission.
    Several hundred U.S. support troops are already stationed 
in Macedonia, some of them only a few miles from the territory 
controlled by the ethnic Albanian rebels. I would think that we 
would want, at the very least, to protect them and our own 
soldiers by being more deeply involved.
    In any event, I am eager to hear from Secretary Powell 
whether in fact the decision has been made relative to what 
role we will play, if any, in Macedonia.
    Finally, the President sought to convince our European 
friends on the need for a missile defense system to guard 
against ballistic missile threats. Despite the best efforts by 
the White House to indicate otherwise, it seems pretty clear 
that most of our allies still harbor a deep skepticism of the 
President's plans, especially those involving any decision to 
unilaterally withdraw from the ABM Treaty. I wonder if the 
Secretary would elaborate on what he perceived to be the 
response of our allies and any indication he can give us on 
what the intentions of the administration are relative to the 
ABM Treaty.
    By all accounts, the meeting in Slovenia between President 
Bush and President Putin went very well. I met with Sergeyev 
yesterday. He was not at the meeting in Slovenia, but he 
indicated he thought it went well from his perspective. So, 
this was a real important chance for the two men to get to know 
each other, if only for a short time. I understand that the 
chemistry was pretty good, which is always positive.
    Some have criticized the President's comments about his 
reaction to Putin. I would just point out that had the meeting 
not gone well, the headlines would have read ``U.S./Russia 
Strained Relations,'' and there would have been a whole 
different set of problems. So, I think the President did quite 
well.
    I am, again, interested in hearing, if the Secretary is 
able to tell us, a little more about the Russian reaction to 
our proposal relative to a missile defense and the possibility 
of amending the ABM Treaty to accommodate the changes that this 
administration might think are necessary.
    The U.S.-Russian relationship encompasses, as we all know, 
many more issues, ranging from the ongoing genocidal war in 
Chechnya to efforts by the Putin administration to stifle 
independent news media and thereby retard the development of a 
genuine civil society in Russia today.
    I look forward to the testimony of our very distinguished 
witness, Secretary Powell, and as much as he is able to tell us 
about this trip we would appreciate.
    Let me conclude by saying, Mr. Secretary, I think, as they 
say in southern Delaware, you done good. I think the President 
did a fine job, and I think the most important thing from my 
perspective that came out of the trip was the fact that America 
remains engaged. The Europeans know it, and the President is 
engaged. I am confident that this is a very, very strong 
platform from which the President starts.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    I am pleased to welcome Secretary of State Colin Powell to our 
committee today to report on the President's trip to Europe and to 
participate in a broader discussion of U.S. security interests in 
Europe and the future of the transatlantic relationship.
    At the outset, let me say that I am heartened President Bush had an 
opportunity to engage in a candid and substantive dialogue with our 
European friends.
    In doing so, the President affirmed the critical role of the 
transatlantic relationship and the fact that the United States remains 
a European power.
    Despite the remarkable progress that the fifteen members of the 
European Union have made in creating, in the EU's phrase, ``an ever 
closer union,'' the fact remains that without the United States, 
mobilizing Europe on tough security questions is a very difficult task.
    Thus, I was pleased with the President's speech in Warsaw declaring 
that the United States will rally support for further NATO enlargement 
at next year's Prague Summit.
    I agree with the President when he says that at least one country 
must be admitted to membership next year. A ``zero option'' for the 
Prague Summit is no longer possible.
    Equally important, no arbitrary red lines on membership should be 
drawn by non-members. NATO must, and will, be open to all of Europe's 
democracies that are ready to handle the responsibilities that 
accompany membership in the Alliance.
    This pro-active U.S. leadership of NATO, however, should not be 
limited to the issue of enlargement. Last week's Foreign Relations 
Committee hearing on the crisis in the Former Yugoslav Republic of 
Macedonia strengthened my belief that the United States must play a 
more active and engaged role in the efforts to forge a political 
solution there.
    I was disappointed, therefore, by unconfirmed newspaper reports 
last weekend that the Bush administration has decided not to commit any 
American troops to any NATO-led force requested by the Macedonian 
President to disarm ethnic Albanian insurgents after a peace agreement 
is reached.
    As I have said before, the events in Macedonia today have a sense 
of history repeating itself.
    We have ``been there, and not done that'' in Croatia in 1991, in 
Bosnia in 1992, and in Kosovo in 1998. We cannot afford, once again, to 
watch and wait as a low-level Balkan crisis erupts into all-out warfare 
while the U.S. waits for Europe to put out the fire.
    A limited NATO involvement now to pacify this extremely delicate 
and volatile situation may avoid the need for a more extensive and 
difficult intervention later.
    I am told that our British allies are prepared to commit troops to 
a limited peace-enforcement mission.
    Several hundred U.S. support troops are already stationed in 
Macedonia, some of them only a few miles from territory controlled by 
ethnic Albanian rebels. I would think that we would want, at the very 
least, to protect them with our own soldiers.
    In any event, I am eager to hear from Secretary Powell whether, in 
fact, a decision has been made not to contribute American troops if a 
NATO-led force is created, and, if so, the rationale behind non-
participation.
    Finally, the President sought to convince our European friends on 
the need for a missile defense system to guard against ballistic 
missile threats.
    Despite the best efforts by the White House to indicate otherwise, 
it is clear that most of our Allies still harbor a deep skepticism of 
the President's plans, especially those involving any decision to 
unilaterally withdraw from the ABM Treaty.
    My position on missile defense is well known, and I do not intend 
for this hearing to become a debate on the pros and cons of the 
President's policy.
    However, what this administration does or does not do on missile 
defense and the ABM Treaty will profoundly affect our relationship with 
Europe, especially Russia.
    By all accounts, the meeting in Slovenia between President Bush and 
President Putin served its modest purpose well: a chance for the two 
men to meet and get to know each other, if only for a short time.
    The U.S.-Russian relationship encompasses many issues, ranging from 
the ongoing genocidal war in Chechnya to efforts by the Putin 
administration to stifle independent news media and thereby retard the 
development of a genuine civil society in Russia today.
    I look forward to the testimony of our very distinguished witness, 
Secretary of State Powell.

    The Chairman. I now yield to my colleague, Senator Helms.
    Senator Helms. Mr. Chairman, before I make my statement, I 
suggest that the Secretary be invited to present his guests for 
these television cameras here, Ms. Ali and Mr. Tafari. Is that 
correct?
    Secretary Powell. Yes, sir.
    Senator Helms. Why do you not have them step up here so you 
can present them?
    Secretary Powell. It would be my great pleasure. May I ask 
them to come to the table just for a moment?
    Senator Helms. That is what I suggested that you do.
    Secretary Powell. Thank you very much, Mr. Chairman. It is 
my great pleasure to present to the committee and to the 
American public who may be watching, Ms. Saffing Ali who is 
from the city of Leeds in the United Kingdom, and Mr. Ezekiel 
Tafari who is from Liverpool. The presence of these two 
youngsters with me is part of their spending a day with the 
Secretary of State of the United States of America, and they 
will spend the whole week here in the United States. They will 
be visiting in New York. They will be doing many things here in 
Washington, DC.
    The program that they are participating in flows from my 
America's Promise. You may recall the Crusade for Children that 
I was in charge of before I came back into Government. The 
former British Foreign Minister, Robin Cook, suggested to me 
one day, you know, as part of our contribution to what you are 
doing with America's Promise, why do we not just swap kids? We 
will send two youngsters to you for a period of time and you 
send two youngsters to us. And that is exactly what we have 
done.
    So, Saffing and Ezekiel are with me today, and two American 
youngsters are going to be in England to do the same thing with 
the new Minister of Foreign Affairs, Mr. Jack Straw, who also 
supports this program.
    I hope that the two youngsters will leave here with a 
better understanding of this marvelous constitutional process 
that they are about to observe for the next hour and a half, at 
least the legislative/executive branch interchange portion of 
our constitutional system. And I think they will go home with a 
better understanding of what America is all about and why there 
is this unique and special relationship between the United 
Kingdom and the United States of America.
    So, it is my pleasure to present Saffing and Ezekiel. I 
thank you so very much for your courtesy, Mr. Chairman.
    Senator Helms. Well, I thank you. I might say to you two 
young people that there are about 60 young people from this 
country here to see their Secretary in action, and there must 
be at least 400 lined up in case seats become available. So, he 
is a very popular television figure in this country.
    Thank you very much.
    Mr. Secretary, this is the second hearing that we have had 
since the disaster that befell the Republican Party.
    The Chairman. We understand. We have been there.
    Senator Helms. The last time when I came in, they said, go 
through that door and turn left.
    Anyway, we are glad to have you, your having returned from 
your very important and very successful, I might add, trip with 
the President to Europe. We are glad, as always, to have you 
before the Foreign Relations Committee. You are very special to 
us and I think you know that.
    Now, you explained about the young people, and I hope that 
they can understand all of the questions and so forth.
    But there should be no doubt that the transatlantic 
relationship is America's most important partnership and that 
NATO is our most important alliance. Acting together, Europe 
and America are the core global power and stability. Together 
we energize the world economy, and our community consists of 
the world's most successful democracies. NATO has proved itself 
to be history's most effective and powerful political and 
military alliance. President Bush's visit to Europe underscored 
this clear recognition of these basic truths.
    I am so pleased with the leadership and commitment you and 
he demonstrated to our Euro-Atlantic partnership. He cogently 
and forthrightly explained, in my judgment, the rationale 
behind his major policy initiatives, including missile defense 
and NATO enlargement. Most importantly, he articulated his 
views in a manner that framed a coherent and powerful vision 
for the transatlantic community.
    In this regard, the President's speech in Warsaw, I 
thought, was almost historic. It may well be remembered as one 
of the defining moments of his administration, and building 
upon his discussion in Brussels with NATO heads of government, 
the President's speech moved decisively forward the debate over 
NATO enlargement.
    Now, the point is that we are no longer quibbling over 
whether and when. It is now an unambiguous alliance priority 
for additional NATO membership invitations to be issued during 
its summit meeting in Prague next year. The question is how 
many.
    Mr. Secretary, in my mind--and we are going to find out 
what is on your mind--my mind tells me that the list must 
include the three Baltic democracies: Latvia, Lithuania, and 
Estonia. Failure to fulfill this goal would undermine the moral 
and strategic imperatives of American engagement in Europe. So, 
I hope you will focus on what is necessary to ensure that these 
three former captive nations are invited to join NATO during 
the alliance's summit meeting in Prague next year.
    But I would be misleading you if I did not admit to raising 
my eyebrows over the assertion that Mr. Putin is 
``trustworthy.'' ``A remarkable leader'' he was called, and a 
man with whom we ``share common values.'' Now, I criticized 
officials from the previous administration for using nearly 
those precise words to describe Mr. Putin, and I was 
dumbfounded to hear them from mine because we must not forget 
that under Mr. Putin's leadership, the press has once again 
felt the jack boot of repression. Arms control treaties 
obligations remain unfilled and violated. Dangerous weapons 
technologies have been transferred to rogue states, and 
Georgia's and Ukraine's security has been threatened, and a 
brutal, indiscriminate military campaign in Chechnya remains 
unabated.
    For these reasons, Mr. Putin is, in my judgment, far from 
deserving the powerful political prestige and influence that 
comes from an excessively personal endorsement by the President 
of the United States. Indeed, prematurely personalizing this 
relationship only undercuts the incentives he has to reorient 
Russia's domestic and foreign policy goals, goals I know that 
this administration shares.
    But let me now close, Mr. Secretary, on a positive note. I 
commend the decision to unify the State Department's offices 
responsible for U.S. policy toward Europe and what we 
mistakenly still call the New Independent States. I have always 
been uncomfortable with previous bureaucratic structures that 
segmented U.S. policy toward Europe and the successor states of 
the Former Soviet Union.
    Now, that bureaucratic structure contradicted the very 
vision that we are supposed to have of an undivided Europe that 
includes the Russian people. It bureaucratically ostracized 
important European countries such as Ukraine from our vision of 
a Europe whole and free. This merger was long overdue, and I 
congratulate you, Mr. Secretary, for recognizing this need.
    Again, I commend both the President and you for your 
historic, significant trip to Europe that brought much needed 
strategic vision to America's most important global 
partnership. I look forward to hearing your analysis of the 
U.S.-Europe relationship in the wake of the trip.
    Finally, on personal privilege, I would like the committee 
to recognize the presence of a former chairman of this 
committee, Senator Percy. Senator, stand up.
    The Chairman. Welcome, Mr. Chairman.
    Senator Percy. I would just say a word that I admire our 
Secretary of State now, for so many years as Chief of Staff, 
and worked with him then. But I am more proud than ever that he 
could be Secretary of State.
    He knows Everett Dirksen asked me to be the founding Vice 
Chairman of the Kennedy Center, which has beautified the city. 
But also he has written me a wonderful letter saying that he 
congratulated me on taking this volunteer job of being chairman 
of the Georgetown Waterfront Park Commission. Every 2 months, 
we have a meeting, and Patricia Gallagher, the new Commissioner 
for planning the parks in Washington, DC, will be our speaker 
at St. John's Church in Georgetown. We will be commenting on 
you and what you have done, and I am going to read the letter 
you sent to me about that, when you said to me, I congratulate 
you on taking this job. You are going to take an eyesore in the 
Nation's capital and turn it into a beautiful national park. I 
thank you ever so much.
    Secretary Powell. Thank you.
    Senator Percy. This is the first time I have been able to 
be back for many, many years. When I read in the Washington 
Times this morning that the Secretary was going to be here, I 
rushed down right away.
    The Chairman. Thank you, Mr. Chairman.
    Senator Helms. Thank you, Mr. Chairman.
    The Chairman. Mr. Secretary, the floor is yours.

    STATEMENT OF HON. COLIN L. POWELL, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Powell. Thank you very much, Mr. Chairman, Mr. 
Chairman, and Mr. Chairman.
    It is a great pleasure to be with you this morning. This is 
my first appearance before the committee since the disaster, 
which Senator Helms made reference to a little earlier.
    The Chairman. I still have the gavel, boss. Be careful.
    Secretary Powell. But the fact of the matter is I have 
always tried to work closely with this committee and I am sure 
that the close relationship that exists between the State 
Department and the committee will continue even with the change 
in leadership.
    Before I turn to our European security interests and the 
President's trip, let me take the occasion to thank the members 
of this committee and the full Senate for what you have done to 
ensure that we have the $582 million that we have requested to 
make immediate payments on our United Nations arrears, and it 
is my strong wish that the Senate and the House can produce 
legislation that not only pays our immediate arrears, but all 
of our U.N. arrears so we can clear this up once and for all, 
and legislation that hopefully makes no preconditions for 
payment. We can talk more about that in the question and answer 
period.
    I also want to thank the committee and the Senate for 
moving expeditiously on the President's State Department 
nominations. I hope that we were all mutually pleased last week 
when we saw that bar chart in the Washington Post that showed 
that the State Department was at the top of the pile among 
cabinet offices with respect to the number of nominations that 
have cleared the Senate. I think that is a result of the close 
cooperation that exists, and I want to express my appreciation 
to all of you for that. We now have 22 State Department 
nominees in place, including me. And 26 more people have been 
officially nominated and sent here for your consideration, and 
I just ask that you all keep it up and give me these troops so 
I can send them out to the field as soon as possible.
    The Chairman. Let me interrupt you for a second, Mr. 
Secretary. There are 26 nominations before the committee and we 
will have hearings on 13 of them this week, and we expect to 
move efficiently. I have asked the subcommittee chairs to move 
on all ambassadorial nominations that are before us and others. 
We would like to get it cleared up by the time we leave for the 
July recess. So, hopefully, you will be very pleased.
    Secretary Powell. For that I thank you, Mr. Chairman.
    Let me turn now to Europe. I returned Saturday night from a 
week in Europe with President Bush, as he visited Spain, 
Belgium, Sweden, Poland, and finally Slovenia. We had the 
opportunity to attend historic meetings with other NATO leaders 
and with leaders of the European Union, and the President also 
met with President Putin of Russia, as you have noted.
    Throughout that trip, every step of the way in every city, 
President Bush emphasized the changing nature of Europe, change 
characterized by the cities we chose to visit, as well as by 
the transforming nature of the President's message. And no city 
that we chose to visit reflected this change more vividly than 
one of the oldest cities in Europe, Warsaw, a Warsaw now whole, 
free, democratic, vibrant, and alive. As President Bush said in 
Warsaw: ``I have come to the center of Europe to speak of the 
future of Europe.''
    Make no mistake about this transformation, however: it is 
firmly anchored in what has made the Atlantic Alliance the most 
powerful, the most enduring, and the most historic alliance 
ever--our common values, our shared experience, and our sure 
knowledge that when America and Europe separate, there is 
tragedy; when America and Europe are partners, there is no 
limit to the horizons we can reach for.
    The members of this committee know how fundamental our 
security interests are in Europe. You know that the 
transatlantic partnership is crucial to ensuring global peace 
and prosperity. It is also crucial to our ability to address 
successfully the global challenges that confront us, such as 
terrorism, dealing with the tragedy of HIV/AIDS, drug 
trafficking, environmental degradation, and the proliferation 
of missiles and of weapons of mass destruction.
    So, President Bush's trip was about affirming old bonds, 
creating new frameworks, and building new relationships through 
which we can promote and protect our interests in Europe and in 
the wider world.
    President Bush did not hesitate to address head on the 
perceptions held by some Europeans, and by some Americans as 
well, of American disengagement from the world and of unbridled 
unilateralism, as some of the commentators like to call it. 
Over and over, he underscored America's commitment to face 
challenges together with her partners, to strengthen the bonds 
of friendship and alliance, and to work out together the right 
policies for this new century of unparalleled promise and 
opportunity. ``I hope that the unilateral theory is dead,'' the 
President said. ``Unilateralists do not come to the table to 
share opinions. Unilateralists do not come here to ask 
questions.''
    President Bush's presence at the meeting of the North 
Atlantic Council was historic not only because it was his 
first, but because it was undoubtedly, in my memory, one of the 
most robust and substantive discussions that we have ever seen 
at a NAC meeting.
    We discussed the five key challenges facing the alliance: 
one, developing a new strategic framework with respect to 
nuclear weapons; second, maintaining and improving our 
conventional defense capabilities; third, enlarging the 
alliance, as the Senator and both chairmen have talked about; 
integrating southeast Europe; and finally, reaching out to 
Russia.
    Since the day of President Bush's inauguration, our 
objective has been to consult with our allies on a new 
strategic framework for our nuclear posture. This framework 
includes our addressing the new challenges the alliance faces 
as a result of the proliferation of weapons of mass destruction 
and the missiles that might deliver them. But it includes much 
more than that.
    As President Bush told our allies, we must have a broad 
strategy of active non-proliferation, counter-proliferation, a 
new concept of deterrence that includes defenses sufficient to 
protect our people, our forces, and our allies, and to reduce 
reliance on offensive nuclear weapons.
    We must move beyond the doctrines of the cold war and find 
a new basis for our mutual security, one that will stand the 
trials of a new century as the old one did the century past.
    In this context too, President Bush praised NATO Secretary 
General Lord Robertson's call for the allies to invest 
vigorously in developing their conventional defense 
capabilities, including voting larger defense budgets. There 
has been too much of a reduction in European defense budgets in 
recent years, and to make sure that NATO remains vibrant and to 
make sure that the Europeans can adequately participate in 
their own European security defense initiative, they need to 
increase their investment in defense efforts.
    The President pledged to work with European leaders to 
reduce the barriers to transatlantic defense industry 
cooperation. Moreover, he welcomed this enhanced role for the 
European Union in providing for the security of Europe, so long 
as that EU role is properly integrated with NATO. The European 
Union and the Atlantic Alliance must not travel separate roads, 
for their destinies are too entwined.
    Also, an important part of our relations with Europe is the 
reality of an expanding alliance and a growing union. ``I 
believe in NATO membership,'' the President said, ``for all of 
Europe's democracies that seek it and are ready to share the 
responsibilities that NATO brings.''
    The question is not whether but when. And the Prague Summit 
in 2002 is the next ``when.'' We are not planning to go to 
Prague with damage limitation in mind but with a clear intent 
to advance the cause of freedom by enlarging NATO.
    And our vision of Europe, whole, free, and at peace, cannot 
exclude the Balkans. That is why the President welcomed and 
applauded the leading role of NATO in bringing stability to 
southeast Europe.
    President Bush acknowledged also the critical place that 
America holds in this process. Though 80 percent of the NATO-
led forces in the Balkans are non-U.S., we know that our GI's 
are critical. ``We went into the Balkans together, and we will 
come out together,'' the President told the Europeans. ``And,'' 
he added, ``our goal must be to hasten the arrival of that 
day'' when we can all come out together.
    President Bush also commended the work of NATO and KFOR in 
helping bring an end to the violent insurgency in southern 
Serbia and cited their partnership with the European Union. He 
stressed that building on this experience, NATO must play a 
more visible and active role in helping the government in 
Macedonia to counter the insurgency there.
    Consistent with this call, NATO, the United States, and our 
allies are taking a proactive approach in Macedonia. The day 
after the NATO meeting of heads of state and government, on 
June 14, NATO Secretary General Robertson and EU High 
Representative Solana, assisted and accompanied by the State 
Department's European Bureau Deputy Assistant Secretary, James 
Swigert, my man in Macedonia, met with Macedonian Government 
officials in Skopje to insist that the parties begin 
discussions immediately to hammer out solutions to inter-ethnic 
problems.
    We are now in intense consultations with our allies and 
with the EU on how we and NATO can best support a political 
solution in Macedonia and protect Macedonia's territorial 
integrity. Both we and our European partners know that we must 
do all we can to help the Macedonian people avoid the same 
tragedy of violence and warfare that has afflicted so many of 
their neighbors in southeast Europe.
    Equally important to our relations with Europe is Russia. 
We have a stake in that great country's eventual success, 
success at democracy, success at the rule of law and at 
economic reform leading to economic recovery.
    Russia must be closely tied to the rest of Europe, and the 
only way for that to happen is for Russia to be as successful 
at practicing democracy and building open markets as the rest 
of Europe has been. And that day will come.
    President Bush and President Putin had a productive meeting 
in Slovenia. President Putin's assessment was that ``reality 
was a lot bigger than expectations.''
    The two Presidents discussed the importance of a sound 
investment climate, including firm establishment of the rule of 
law, the importance of this to Russia's future economic 
prosperity. And President Bush made clear America's willingness 
to engage in meaningful economic dialog with Russia, beginning 
with the travel to Moscow in July of Secretaries O'Neill and 
Evans.
    The two Presidents also agreed to launch serious 
consultations on the nature of our security relationship within 
the context of a new approach for a new era. The challenge is 
to change our relationship from one based on a nuclear balance 
of terror to one based on openness, mutual confidence, and 
expanded areas of cooperation.
    President Bush proposed and President Putin agreed to 
establishing a structured dialog on strategic issues, and the 
two Presidents charged Foreign Minister Ivanov and me and 
Secretary Rumsfeld and his Russian counterpart, along with our 
respective defense establishments, to conduct and monitor a new 
dialog to find a new strategic framework. Among the first 
subjects for this dialog will be missile defense, offensive 
nuclear weapons, and the threat posed by the proliferation of 
weapons of mass destruction.
    The Presidents also agreed to continue their search for 
common solutions in the Balkans, the Middle East, Nagorno-
Karabakh, and Afghanistan, and they discussed their common 
interest in developing the resources of the Caspian Basin.
    President Bush also raised areas of concern with Russia, 
such as Chechnya, arms sales to Iran, and religious and media 
freedom in Russia. He also expressed the hope that Russia would 
develop constructive relations with its neighbors, such as 
Ukraine and Georgia.
    Both Presidents clearly look forward to continuing their 
discussions at the Genoa Summit in July. I believe we made 
significant progress in this first meeting and we will be 
working hard to ensure our followup efforts are coordinated and 
productive.
    The President also wanted to signal to European leaders, 
who sometimes look a little too inwardly, that not only is our 
partnership crucial to our peace and prosperity, but that the 
very fact that we are at peace and are prosperous places 
obligations upon us.
    President Bush said that ``those who have benefited and 
prospered most from the commitment to freedom and openness have 
an obligation to help others that are seeking their way along 
that path.'' And then he pointed to Africa.
    We must shut down the arms trafficking, fight the terrible 
scourge of HIV/AIDS, and help Africa enter the world of open 
trade that promises peaceful, prosperous days.
    The President discussed these issues at the U.S.-EU Summit 
in Goteberg. He made it clear that we must look even beyond 
Africa to the challenges that confront us all as inhabitants of 
this Earth. We must shape a balance of power in the world that 
favors freedom so that from the pivot point of that balance we 
can lift up all people, protect our precious environment, 
including dealing with global climate change, and defend and 
secure the freedoms of an ever-widening world of open and free 
trade, the rule of law, and respect for the rights of humanity 
and the dignity of life.
    In this regard, President Bush and his European Union 
counterparts are committed to launching an ambitious new round 
of multilateral trade negotiations at the World Trade 
Organization Ministerial Meeting in Doha later this year. We 
seek a round that will lead both to the further liberalization 
of world trade and to clarifying, strengthening, and extending 
WTO rules so as to promote economic growth and equip the 
trading system to meet the challenges of globalization.
    This new round must equally address the needs and 
priorities of developing countries, demonstrate that the 
trading systems can respond to the concerns of civil society, 
and promote sustainable development. We will work closely 
together and with our partners in the coming weeks to secure 
consensus to launch a round based on this substantive and 
forward-looking agenda.
    At the end of the day, Mr. Chairman, it was a very 
momentous trip. We are embarked in a new era. We have set in 
motion with some of our most important allies a mighty debate 
to determine the path we shall take. On the outcome of that 
debate may rest our future peace and prosperity. In my lifetime 
and yours, and in the reasonable span of our memories and our 
fathers' memories, it is mainly in Europe that the colossal 
struggles have begun, struggles that in their evolution could 
well have determined another fate for our world.
    At the mid-point of the last century, we devised a way to 
prevent such struggles. It is called the transatlantic 
alliance. For this present century, we must shape that alliance 
anew, but without sapping the great strengths that make it what 
it is. An historic opportunity awaits this President, this 
Congress, and this people. We must seize it for all it is 
worth, and we fully intend to do so.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of Secretary Powell follows:]

               Prepared Statement of Hon. Colin L. Powell

    Mr. Chairman, I look forward to testifying before this committee 
again and to answering your questions.11I have just returned with 
President Bush from Europe. It was my third trip to Europe since 
assuming the position of Secretary of State five months ago--and of 
course it was President Bush's first trip.
    I look forward to answering your questions with respect to that 
trip and with respect to the very positive discussions the President 
had there and that I had there.
    Before I turn to our European security interests, however, I want 
to thank the members of this committee and the full Senate for what you 
have all done to ensure we have the $582 million to make immediate 
payments of our United Nations arrears. It is my strong wish that the 
Senate and the House can produce legislation that not only pays our 
immediate arrears but ALL our UN arrears--and legislation that makes no 
new preconditions for payment.
    I also want to thank the committee and the Senate for moving 
expeditiously on the President's State Department nominations. You have 
made my life much easier--and far less lonely.
    We have clearly enjoyed a tremendous amount of cooperation with 
this committee. And I look forward to adding a number of talented 
people to the Department as soon as possible, with your advice and 
consent.
    This committee has approved 22 State Department nominees this year 
so far--including me. Twenty-six more people have been officially 
nominated and sent here for your consideration.
    Of the 26 nominees, 21 are nominated to bilateral posts as 
ambassadors. Four have a hearing tomorrow. No one knows better than the 
members of this committee how our embassies depend on having these 
diplomats on the ground doing the people's business. I know that you 
will consider these nominees as a top priority.
    Now Mr. Chairman, let me turn to our relations with Europe, the 
reason you called this hearing.
    I returned Saturday night from a week in Europe with President Bush 
as he visited Spain, Belgium, Sweden, Poland, and Slovenia. We had the 
opportunity to attend historic meetings with other NATO leaders and 
with leaders of the European Union (EU). We met also with President 
Putin of Russia.
    Throughout the trip, President Bush emphasized the changing nature 
of Europe--change characterized by the cities we chose to visit as well 
as by the transforming nature of the President's message. And no city 
reflected this change more vividly than one of the oldest cities in 
Europe, Warsaw--a Warsaw whole, free, democratic, vibrant and alive. As 
President Bush said in Warsaw: ``I have come to the center of Europe to 
speak of the future of Europe.''
    Make no mistake about this transformation, however: it is firmly 
anchored in what has made the Atlantic Alliance the most powerful, the 
most enduring, the most historic alliance ever--our common values, our 
shared experience, and our sure knowledge that when America and Europe 
separate, there is tragedy; when America and Europe are partners, there 
is no limit to our horizons.
    The members of this committee know how fundamental are our security 
interests in Europe. You know that the transatlantic partnership is 
crucial to ensuring global peace and prosperity. It is also crucial to 
our ability to address successfully the global challenges that confront 
us such as terrorism, HIV/AIDS, drug trafficking, environmental 
degradation, and the proliferation of missiles and of weapons of mass 
destruction.
    So President Bush's trip was about affirming old bonds, creating 
new frameworks, and building new relationships through which we can 
promote and protect our interests in Europe and in the wider world.
    President Bush did not hesitate to address head-on the perceptions 
held by some Europeans--and by some Americans as well--of American 
disengagement from the world and of unbridled unilateralism. Over and 
over again he underscored America's commitment to face challenges 
together with her partners, to strengthen the bonds of friendship and 
alliance, and to work out together the right policies for this new 
century of unparalleled promise and opportunity. ``I hope that the 
unilateral theory is dead,'' the President said. ``Unilateralists do 
not come to the table to share opinions. Unilateralists do not come 
here to ask questions.''
    President Bush's presence at the meeting of the North Atlantic 
Council (NAC) was historic, not only because it was his first but 
because it was undoubtedly, in my memory at least, the most robust and 
substantive discussion of real issues the NAC has ever conducted.
    We discussed the five key challenges facing the Alliance: (1) 
developing a new strategic framework with respect to nuclear weapons, 
(2) maintaining and improving our conventional defense capabilities, 
(3) enlarging the Alliance, (4) integrating southeast Europe, and (5) 
reaching out to Russia.
    Since the day of President Bush's inauguration, our objective has 
been to consult with our Allies on a new strategic framework for our 
nuclear posture. This framework includes our addressing the new 
challenges the Alliance faces as a result of the proliferation of 
weapons of mass destruction and the missiles that might deliver them. 
But it includes much more.
    As President Bush told our Allies ``we must have a broad strategy 
of active non-proliferation, counter-proliferation, . . . a new concept 
of deterrence that includes defenses sufficient to protect our people, 
our forces, and our Allies, and reduced reliance on nuclear weapons.''
    We must move beyond the doctrines of the Cold War and find a new 
basis for our mutual security--one that will stand the trials of a new 
century as the old one did the century past.
    In this context too, President Bush praised NATO Secretary General 
Lord Robertson's call for the Allies to invest vigorously in developing 
their conventional defense capabilities, including voting larger 
defense budgets. The President pledged to work with European leaders to 
reduce the barriers to transatlantic defense industry cooperation 
Moreover, he welcomed an enhanced role for the European Union in 
providing for the security of Europe--so long as that role is properly 
integrated with NATO. The Union and the Alliance must not travel 
separate roads for their destinies are entwined.
    Also an important part of our relations with Europe is the reality 
of an expanding Alliance and a growing union. `I believe in NATO 
membership,'' the President said, ``for all of Europe's democracies 
that seek it and are ready to share the responsibilities that NATO 
brings.''
    The question is not whether but when. And the Prague Summit in 2002 
is the next ``when.'' We are not planning to go to Prague with damage 
limitation in mind but with a clear intent to advance the cause of 
freedom.
    And our vision of Europe whole, free, and at peace cannot exclude 
the Balkans. That is why the President welcomed and applauded the 
leading role of NATO in bringing stability to southeast Europe.
    President Bush acknowledged also the critical place that America 
holds in this process. Though 80 percent of the NATO-led forces in the 
region are non-U.S., our GI's are critical.
    ``We went into the Balkans together, and we will come out 
together,'' the President told the Europeans. ``And,'' he added, ``our 
goal must be to hasten the arrival of that day.''
    President Bush also commended the work of NATO and KFOR in helping 
bring an end to the violent insurgency in southern Serbia and cited 
their partnership with the European Union. He stressed that, building 
on this experience, NATO ``must play a more visible and active role in 
helping the government in Macedonia to counter the insurgency there.''
    Consistent with this call, NATO, the U.S., and our Allies are 
taking a proactive approach in Macedonia. The day after the NATO 
meeting of Heads of State and Government, on June 14, NATO Secretary 
General Robertson and EU High Representative Solana, assisted by the 
State Department's European Bureau Deputy Assistant Secretary for 
Eastern and Southern Europe, James Swigert, met with Macedonian 
government officials in Skopje to insist that the parties begin 
discussions immediately to hammer out solutions to inter-ethnic 
problems.
    We are now in intense consultations with our Allies and with the EU 
on how we and NATO can best support a political solution in Macedonia 
and protect Macedonia's territorial integrity. Both we and our European 
partners know that we must do all we can to help the Macedonian people 
avoid the same tragedy of violence and warfare that has afflicted so 
many of their neighbors in southeast Europe.
    Equally important to our relations with Europe, is Russia. We have 
a stake in that great country's eventual success--success at democracy, 
at the rule of law, and at economic reform leading to economic 
recovery.
    Russia must be closely tied to the rest of Europe--and the only way 
for that to happen is for Russia to be as successful at practicing 
democracy and building open markets as the rest of Europe. And that day 
will come.
    President Bush and President Putin had a productive meeting in 
Slovenia. President Putin's assessment was that ``reality was a lot 
bigger than expectations.''
    The two Presidents discussed the importance of a sound investment 
climate including firm establishment of the rule of law--to Russia's 
future economic prosperity. And President Bush made clear America's 
willingness to engage in meaningful economic dialogue with Russia, 
beginning with the travel to Moscow in July of Secretaries O'Neill and 
Evans.
    The two Presidents also agreed to launch serious consultations on 
the nature of our security relationship within the context of a new 
approach for a new era. The challenge is to change our relationship 
from one based on a nuclear balance of terror to one based on openness, 
mutual confidence, and expanded areas of cooperation.
    President Bush proposed, and President Putin agreed to, 
establishing a structured dialogue on strategic issues, and the two 
Presidents charged Foreign Minister Ivanov and me, and Secretary 
Rumsfeld and his Russian counterpart along with their respective 
defense establishments, with conducting and monitoring this dialogue. 
Among the first subjects for this dialogue will be missile defense, 
offensive nuclear weapons, and the threat posed by proliferation of 
weapons of mass destruction.
    The Presidents also agreed to continue their search for common 
solutions in the Balkans, the Middle East, Nagorno-Karabakh, and 
Afghanistan, and they discussed their common interests in developing 
the resources of the Caspian Basin.
    President Bush also raised areas of concern such as Chechnya, arms 
sales to Iran, and religious and media freedom in Russia. He also 
expressed the hope that Russia would develop constructive relations 
with its neighbors such as Ukraine and Georgia.
    Both Presidents clearly look forward to continuing their 
discussions at the Genoa Summit in July. I believe we made significant 
progress in this first meeting and we will be working hard to ensure 
our follow-up is coordinated and productive.
    The President also wanted to signal to European leaders--who 
themselves sometimes look too inwardly--that not only is our 
partnership crucial to our peace and prosperity but that the very fact 
we are at peace and are prosperous places obligations upon us.
    President Bush said that ``those who have benefited and prospered 
most from the commitment to freedom and openness have an obligation to 
help others that are seeking their way along that path.'' And he 
pointed to Africa.
    We must shut down the arms trafficking, fight the terrible scourge 
of HIV/AIDS, and help Africa enter the world of open trade that 
promises peaceful and prosperous days.
    The President discussed these issues at the U.S.-EU Summit in 
Goteborg. He made it clear that we must look even beyond Africa, to the 
challenges that confront us all as inhabitants of this earth. We must 
shape a balance of power in the world that favors freedom so that from 
the pivot point of that balance we can lift up all people, protect our 
precious environment--including dealing with global climate change, and 
defend and secure the freedoms of an ever-widening world of open and 
free trade, the rule of law, and respect for the rights of humanity and 
the dignity of life.
    In this regard, President Bush and his European Union counterparts 
are committed to launching an ambitious new round of multilateral trade 
negotiations at the World Trade Organization (WTO) Ministerial Meeting 
in Doha. We seek a round that will lead both to the further 
liberalization of world trade and to clarifying, strengthening and 
extending WTO rules, so as to promote economic growth and equip the 
trading system to meet the challenges of globalization.
    This new round must equally address the needs and priorities of 
developing countries, demonstrate that the trading system can respond 
to the concerns of civil society, and promote sustainable development. 
We will work closely together and with our partners in the coming weeks 
to secure consensus to launch a round based on this substantive and 
forward looking agenda.
    At the end of the day, Mr. Chairman, it was a very momentous trip. 
We are embarked in a new era. We have set in motion with some of our 
most important Allies a mighty debate to determine the path we shall 
take. On the outcome of that debate may rest our future peace and 
prosperity. In my lifetime and yours, and in the reasonable span of our 
memories and our fathers' memories it is mainly in Europe that the 
colossal struggles have begun--struggles that in their evolutions could 
well have determined another fate for our world.
    At the mid-point of the last century, we devised a way to prevent 
such struggles. It is called the transatlantic alliance. For this 
present century, we must shape that alliance anew--but without sapping 
the great strengths that make it what it is. An historic opportunity 
awaits this President, this Congress, and this people. We must seize 
it--for all it is worth.
    Thank you, and I look forward to your questions.

    The Chairman. Thank you, Mr. Secretary.
    We will have 10-minute rounds.
    What I would like to explain to your two guests is, in your 
country there is a question time where the Prime Minister 
stands before the Parliament. We do not have that. This is as 
close as we come to that system, if you are wondering what your 
new friend is about to undergo here.
    I would like to jump right to ABM and national missile 
defense. The President asserted, when speaking with his 
colleagues and counterparts, that there will be no deployment 
of any missile system that is not fully tested and operational. 
At least that is how it was reported. Is that an accurate 
representation of the President's comments to the heads of 
state with whom he met in Europe, that there will be no 
deployment until a missile defense system has been fully tested 
and operationally effective?
    Secretary Powell. We, of course, would not deploy anything, 
for the purpose of defending ourselves against an incoming 
missile, if we did not think it would work. And the way to find 
out whether it will work or not is to make sure you have 
invested properly in research and development and you have done 
sufficient operational testing so that you have some level of 
confidence, a significant level of confidence, that it would 
work and serve its intended purpose.
    It does not necessarily mean that you have to wait until 
every last test has been concluded and the whole thing has been 
fielded to some level of inventory before you actually start 
deploying it.
    So, I think what Secretary Rumsfeld is doing is moving in 
this direction rapidly with research and development and 
testing on chosen technologies, and as soon as a confidence 
level has been reached these technologies can do the job, we 
might take the option of deploying them as they become ready.
    The Chairman. Well, General, that is the first State 
Department answer you have given me. I do not quite understand 
the answer.
    Secretary Rumsfeld has been quoted as saying that we 
underastand that any system we have ever deployed has not 
necessarily worked the first time we deployed it, and that we 
have to deploy and we will work it out after that. Some have 
started to refer to it as the Scarecrow Defense.
    What I am trying to get at here is, in one transatlantic 
conversation I had since the President has been back, there is 
a question in the minds of at least one person who was a 
participant, not a head of state, in the meetings that he 
thought the President was saying that there would be no 
deployment until there was a high level of confidence that 
whatever was deployed would work, that it had been tested, and 
that it was operationally effective, as opposed to the way 
Secretary Rumsfeld has been quoted as talking about it.
    So, the reason I ask the question is a lot of Europeans and 
a lot of Americans--I speak for myself--are wondering, when you 
take that comment, coupled with the comments that have been 
made, which to the best of my knowledge, are not specifically 
accurate--not made by the President--the assertion made is that 
in order to be able to deploy a missile defense system, we have 
to be able to test in ways that violate the ABM Treaty. Thus, 
the impression is that we have to abandon ABM now in order to 
be able to test.
    That is not accurate, as you know. There is no test that I 
am aware of--none at all--in classified briefings and open 
briefings, that is even on the board before the year 2003 that 
even gets us close to a violation of ABM, were we to proceed.
    So, what I am trying to get at, without being too 
convoluted here, is, how related is the assertion that we will 
not deploy till tested to a commitment that we are not 
unilaterally going to pull out of ABM in the next 6 or 8 or 10 
months? Because that is really what everybody wants to know.
    Secretary Powell. Well, you know, the system that President 
Clinton was proposing just a year ago would have broken the 
limits of the ABM Treaty rather quickly.
    The Chairman. Had he deployed it.
    Secretary Powell. Had he deployed it. Had he made a 
decision to deploy it, it would have broken those limits rather 
quickly.
    My State Department answer I thought rather brilliantly 
bridged the two points----
    The Chairman. I am looking for General Powell here, not 
Secretary Powell.
    Secretary Powell. No. You are hearing both.
    The correct answer is you have different technologies at 
different levels of development. As you bring them along, you 
are liable to have a greater confidence in one technology than 
in another technology. As you go up that confidence level, 
through research and development and testing and operational 
testing, you may have a higher level of confidence in deploying 
one than, say, another.
    But the one thing that we do know is that as you go down 
this road, whether it is with deploying the radar to Shemya, or 
going down the road of that system that President Clinton was 
considering--and is still a possibility--or whether you are 
starting to move in the direction of boost phase interception, 
say, using Navy ships, Aegis-based systems, you will at some 
point run into the constraints of the ABM Treaty.
    And when you are running into the constraints of the ABM 
Treaty, a judgment has to be made at that time as whether or 
not you have to find some way to get around those constraints 
either with some form of negotiation with our partner in the 
ABM Treaty, the Russian Federation, or you have to tell them we 
have got to move forward because we are determined to have 
missile defense and we have the technology that will accomplish 
that for us and this treaty is standing in the way. We have not 
been able to find a way to get it aside, move it aside in a 
mutual way. Then we are going to have to move forward 
unilaterally. When that time comes, I will leave to Mr. 
Rumsfeld to make the judgment, not me.
    The Chairman. I guess what I am getting at is the reason 
why the President did not deploy is that the system did not 
work. The test had failed. They had not met the criteria of the 
Defense Department which would have given the go ahead to begin 
the deployment of the system by pouring concrete and putting 
the radars in Alaska.
    But I do not want to belabor the point. I do think it is an 
important issue. At some point it is my intention to have some 
hearings, consistent with the time table of the administration, 
as to at what stages they believe that certain tests would 
require them to have to abandon ABM because there are generic 
assertions being made--not by you today, but in this debate--
that we have to break out in order to test to know what system 
to deploy. I have met with everyone in the intelligence 
community I can, and I have met with everyone that I can in the 
Defense establishment, and I know of no such tests that are 
required for any system being contemplated that would require 
us to break out of ABM or seek an amendment in order to conduct 
the test before the year 2003 at the earliest.
    But at any rate, I will go back to that at another time and 
date. But the fact that the President has stated to our allies 
that--my phrase, not the administration's--no Scarecrow Defense 
is going to be erected without their knowledge, and it is going 
to be something you think is workable before you would move 
forward.
    Secretary Powell. You were reading a report of what the 
President said. You were not quoting the President.
    The Chairman. Correct. I did not get that from the 
President of the United States.
    My time is about to expire. Let me move to Macedonia for a 
second, if I may, Mr. Secretary.
    I know I am not the only one on this committee and it is 
not only on this side of the aisle that shares the view that we 
cannot temporize our actions too much as it relates to 
Macedonia. We may find ourselves in a very difficult situation 
that requires more action.
    I am a little bit confused as to what it is that the 
administration is pushing as a political settlement--we all 
agree that this requires ultimately a political settlement in 
the former Yugoslav Republic of Macedonia--and what it has 
indicated, if you are able to tell us, to our allies about what 
role we are prepared to play in conjunction with them if, in 
fact, there is some success coming out of the meetings that 
have begun in Macedonia among the parties to seek a political 
settlement.
    Would you elaborate on, A, what you think it is that 
politically must be done by the Macedonian Government to move 
the ball here? And B, if you can, tell us what America is 
prepared to do, in conjunction with our allies, as it relates 
to enforcing any settlement in that country.
    Secretary Powell. On the political track, we are doing a 
great deal. As I noted in my prepared remarks, Deputy Assistant 
Secretary of State Jim Swigert works very closely with Mr. 
Solana, the High Representative of the United Nations, and with 
Lord Robertson, the Secretary General of NATO, and he travels 
in the region. So, we do have an almost constant envoying going 
back and forth in the person of Jim Swigert. He has done a 
terrific job. And, of course, we have our Ambassador there as 
well.
    We are pressing the Macedonian Unity Government very hard 
now to deal with the aspirations, desires, and complaints of 
the Albanian minority with respect to representation in the 
government, with respect to representation in civil life and in 
the military and the police, the use of language, and all the 
other issues that you are familiar with. We have been saying to 
them consistently in all of my meetings with President 
Trajkovski, in my phone calls with him--I met with the new 
Foreign Minister a couple of weeks ago in Budapest--making the 
case that they really do have to not just talk about changes, 
but make the necessary changes.
    They have been off in a retreat for the last couple of 
days, working hard, and they have now received the bill of 
particulars, the desires of the Albanian side, as to what they 
really would like to see happen. And it is going to require, at 
the end of the day, some constitutional changes.
    So, we are pressing that as hard as we can because it is 
only through a political solution they will be able to keep 
moderate Albanians, Macedonians, from joining the extremists.
    At the same time, the government has a responsibility to 
defend itself against attacks from people who are taking over 
villages, people who are using violence to pursue these 
political aims.
    We hope that if this political track works, it will provide 
the basis to draw those extremists into the political process 
and to stop fighting, stop taking over villages, stop using 
violence as their weapon of choice. If that succeeds, then an 
element of that will be for them to disarm, to turn their 
weapons in.
    What NATO is examining as a military matter now--and we are 
supporting this examination, and our people in Brussels at NATO 
headquarters are participating in this work. Our military 
authorities are participating in this work. NATO may be asked 
to provide disarmament points, places where these individuals 
who have taken up the gun can turn in those guns and return to 
civil society and return to the political process. What the 
NATO military authorities have come up with in recent days is a 
concept of operations as to how you would perform such a 
disarmament task. It is a disarmament task in the sense that 
you are not going out and fighting people to disarm them, but 
you are setting up points where their weapons can be received.
    To date, as you noted earlier, some nations have made a 
direct contribution of additional forces to such a force. We 
have not yet. In fact, we have roughly 700 people in Macedonia 
already, and they at some point could become a part of that 
process. As you know, we also have elements in KFOR in Kosovo 
who are working on the Kosovo-Macedonian border to help seal 
off.
    So, I think we are involved militarily. We are involved 
politically. We are involved diplomatically. And we are, I 
think, doing everything that has been asked of us so far, but 
we have not yet made any commitment to troops for the purpose 
of this potential disarmament mission because we really do not 
see a need to make such a contribution yet.
    The Chairman. Thank you very much. My time is well expired.
    Senator Helms.
    Senator Helms. Thank you, Mr. Chairman.
    Mr. Secretary, I think it is well known that Senator Biden 
and I have a good working relationship and I admire him very 
much. He on occasion has expressed his disagreement with me, 
and I have expressed mine with him.
    But I want the record to show that I pray that this 
Government of ours will never hesitate to throw whatever we 
have available at any incoming missile, no matter what the 
stage of development is, if we have got a fighting chance to 
knock it down.
    The ABM Treaty. I do not know of a deader duck than that 
one. The Soviet Union no longer exists, and that is whom we 
made the agreement with. But let me move on.
    President Bush has clearly stated, I think, for all to 
understand, his determination to have NATO enlarge at the 
alliance's Prague Summit and has signaled his desire for the 
next round of invitations to have a Baltic dimension. What are 
the next steps for the United States on this initiative?
    Secretary Powell. We will continue to work with our allies 
and consult with our allies as to how we will go through the 
process of deciding which nations will actually be invited to 
join. We will also work with the nine aspirant nations, those 
who are in the process of moving forward, so that they can 
complete the activities required under the Membership Action 
Plan and to make sure that they are prepared to be contributing 
members of the NATO alliance.
    What we are not doing at this point is to start placing 
bets on individual countries because we do not want to deter 
any country from doing more over the next year and a half 
because they think, well, we are in, we have got a lock on it, 
or setting off a beauty contest among the countries.
    What the President clearly said, though, was from the 
Baltic region, all the way down to the Balkans, we should not 
let any country be excluded because of geography, because of 
history, or because some other country may not like them 
becoming a member of the alliance. The President made this very 
clear in his speech in Warsaw. He made it very clear to 
President Putin, and he made it very clear to every audience he 
spoke to. So, the alliance is wide open for business.
    I got into a discussion with one of my Russian colleagues 
recently about this. Well, the Warsaw Pact went away. Why will 
NATO not go away? And the answer is because people keep trying 
to join it. It is hard to say it is not relevant when people 
keep knocking on the door.
    So, the door will be opened, and at an appropriate time, 
the alliance as a group, 19 nations, will decide how many 
nations come through the door in the next window, which is 
Prague 2002.
    Senator Helms. I guess everybody has a wish list on the 
next entries, and I certainly have mine. I am going to ask this 
question just for the record. If Latvia and Lithuania and 
Estonia continue their progress, particularly in terms of their 
respective defense policies, do you expect that they have a 
pretty good chance of getting an invitation to NATO?
    Secretary Powell. I think any nation of the nine----
    Senator Helms. Now, there comes a State Department answer.
    Secretary Powell [continuing]. That continues to make 
progress toward their MAP requirements and pursue democracy and 
all the other things that are expected of a NATO nation would 
have a pretty good chance.
    I learned a lot since I got to the State Department, Mr. 
Chairman.
    Senator Helms. On June 14, the democratically elected 
President of Chechnya sent a moving letter--and I know you read 
it--to President Bush describing the atrocities committed by 
Russian forces against the Chechnyan people. That President 
pleaded for the United States to do more to pressure the 
Kremlin to cease its military attacks and to begin peace 
negotiations with the Chechnyan resistance.
    He also noted that his earlier letter to the Department of 
State, articulating a peace proposal for a just end to this 
conflict, is still unanswered. I do not know when he wrote that 
letter to the State Department, and that does not bother me as 
much as some other things.
    I guess the question I want to ask you is, do you endorse 
this peace proposal?
    Secretary Powell. I would endorse any proposal that would 
bring a conclusion to this terrible crisis.
    Let me answer your question this way, Mr. Chairman. 
President Bush spoke directly to Mr. Putin about Chechnya. I do 
it at every meeting I have with my Russian colleagues, human 
rights abuses, the fact that we have seen now evidence of some 
of the atrocities committed by Russian soldiers. We succeeded 
in having the Russians agree to let an Organization for 
Security and Cooperation in Europe [OSCE] delegation back in to 
have a permanent presence in the region, and we have noted 
recently that the Russians have arrested and put before the Bar 
of Justice some soldiers who may have been responsible for this 
kind of atrocity.
    But nevertheless it is an unacceptable situation and we are 
pushing the Russians in every way that we know how to try to 
find a political solution because they are sure not going to 
find a military one.
    Senator Helms. Let me ask you this. Will you respond to 
that letter?
    Secretary Powell. Yes, sir. I will go back to the 
Department and look for the letter. I do not know if it came in 
on my watch or previously----
    Senator Helms. I will send it down to you.
    Secretary Powell. Yes, sir.
    Senator Helms. But I would appreciate your doing it because 
if you do not respond to this letter, that is going to have 
implications that are undesirable. Now, I do not think you want 
to have the reputation--and you do not have it--that you are 
not going to worry about people like the Chechnyans who are 
really suffering. So, if you could get a letter off to them and 
maybe one that could be released by us, if you want it that 
way, or whatever you want, but I think you ought to give them 
some encouragement.
    Secretary Powell. I will get the letter, Mr. Chairman, take 
a look at it, and see what we can do. I am not sure who it 
comes from.
    Senator Helms. I guess I have got to ask this question. 
How, if any, does the Bush administration's policy toward 
Chechnya differ from the Clinton administration's policy? Is 
there any difference?
    Secretary Powell. I do not know that I can answer that. I 
cannot speak for the Clinton administration policy. I know that 
from day one we have been pressuring the Russians to find a 
political solution. We have made it a priority item in all of 
our discussions. We have told them it will have an effect on 
our overall relationship with the Russians. It represents human 
rights abuses that are unacceptable, and we will speak out 
about it constantly and continuously.
    Senator Helms. Well, you just cannot lock arms with people 
who allow their government to do what Russia is doing to 
Chechnya. I do not think you can. I have known you for a long 
time, and I do not think you like what is going on over there. 
Not one bit.
    A recent NATO review of current allied force plans conclude 
that our allies will fulfill less than half of their respective 
force goals. And you know what I mean by that. And that is a 
failure that will leave them even more dependent upon the 
United States if they and we were to face a new conflict.
    Now, my question is, obviously, can we anticipate a 
reversal of this military decline prior to the alliance's 
summit meeting in Prague next year? It has two parts. The 
second question, how was this issue addressed, if at all, in 
the President's meeting at Brussels?
    Secretary Powell. I cannot answer what those governments 
might do between now and Prague 2002. I can say that it came up 
in the President's meetings in Brussels. It was discussed very 
directly at the NAC meeting. Lord Robertson spoke directly to 
all the heads of state and government that they were falling 
short of their force goals. They had to do more. He even had 
prepared a little brochure, passed out to each member who was 
there, to describe the shortfalls. So, it is a high priority in 
Lord Robertson's mind and it is a high priority in President 
Bush's mind.
    Whether or not those individual heads of state and 
government will be able to go back and get their parliaments to 
actually do what is necessary to improve attainment of those 
force goals remains to be seen, but it is something that we 
discuss with them at every NATO meeting, whether it is a 
defense ministerial or my ministerials with my Foreign Minister 
colleagues.
    Senator Helms. You say you discussed it?
    Secretary Powell. I raise it at my ministerial meetings 
with my fellow Foreign Ministers, and I know Don Rumsfeld 
raises it when he meets with his defense colleagues in NATO 
meetings. And I make the point. You all talk about a European 
security and defense identity, but unless you are adding 
capability, it is not going to work and it is not going to be 
good necessarily for NATO. You have got to make the investment. 
You cannot just talk a good game; you have got to pay for a 
good game.
    Senator Helms. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman. Let me congratulate 
you, Joe, on your chairmanship. I thank Senator Helms for his 
leadership of the committee over the years.
    It is a pleasure to have you, Mr. Secretary, with us today.
    Let me begin by just telling you I want to commend you for 
the work you have done in Europe recently. I think you have 
done very, very well. I think the President's trip went a lot 
better than certainly the indications were from reports I have 
heard independently from people.
    Senator Helms, I gather, expressed some concerns about the 
meeting with President Putin, and I share some of those 
concerns he has. But I think having a good meeting like that, 
we should not overreact to the personal reactions of how two 
individuals judge the first meeting with each other. So, my 
assessment was it was pretty good.
    Senator Helms has raised Chechnya, and I would like to 
bring up two subject matters to you that may seem a bit 
unrelated to the subject matter of the hearing, but in fact, I 
think they are related if you look at events in the Balkans and 
elsewhere. The issue of human rights is very much on the minds 
of people.
    You were very gracious earlier this week to meet with an 
individual for whom I have a high, high regard, Mary Robinson, 
the High Commissioner for Human Rights at the United Nations. 
In fact, a group of us met with her after your meeting here in 
the U.S. Senate. She had asked to meet with us about the 
upcoming conference in Durbin, South Africa at the end of 
August and early September, I believe the dates are for that. 
You, as I said, very graciously gave her time, and she was very 
grateful for the opportunity to express her interests and what 
is hoped to be achieved at that conference.
    I would just like to raise with you the issue about our 
participation there. I know you are weighing this. I know there 
are some very legitimate concerns about what could come out of 
that kind of conference. My point would be, I guess, to leave 
it to chance probably heightens the degree that some tough 
things could come out of there that are not in our interest and 
the interest of some of our allies, particularly Israel. So, 
there is somewhat of a risk of participating, but I think it 
diminishes the risk of some of the other outcomes that people 
are worried about.
    So, I would urge you to possibly even lead the delegation. 
I know you are thinking about that. I do not expect you to 
answer that question in a public hearing today, but I would at 
least like to express my support for the idea that you might 
lead that delegation. I think you could do a tremendous amount 
to raise the profile of that meeting and really address some 
very, very critical issues.
    The title is the Conference on Racism, Racial 
Discrimination, Xenophobia, and Race-Related Intolerance. I 
wish they would be more optimistic and positive about it, 
instead of dark.
    I wonder if you might just share with us at least some of 
the preliminary thinking about it. I know there is a 
preconference in Geneva coming up to work out some remaining 
issues that need to be addressed at the Durbin conference. So, 
that is the first question I have for you.
    You have been to Africa, by the way, and I commend you for 
making this one of the first trips on your agenda. I thought 
your speech in Zimbabwe was terrific. I know we have 
differences from time to time, but I also like an opportunity 
like this to express my gratitude to you for the kind of 
leadership you are showing in a number of areas.
    But if you might comment for me.
    Secretary Powell. Yes, thank you. The World Conference on 
Racism I think can be a powerful vehicle if it is a forward-
looking conference and points the way ahead. There is some 
danger of it becoming mired in past political issues and past 
events that could take away from the value of such a 
conference.
    I met with High Commissioner Robinson twice--the other day 
as you indicated, but I met with her very early on in my tenure 
as Secretary of State--and told her that I was anxious to see 
strong U.S. participation in the conference, but that some 
serious work had to be done to eliminate such issues such as a 
zionism as racism proposition or getting into slavery and 
compensation and things of that nature, which would detract 
from the purpose of the conference.
    Senator Dodd. I agree.
    Secretary Powell. She understood that and was working on 
it. From our conversation the other evening, there may be some 
progress and we may see more at the upcoming meeting that you 
touched on.
    When I was in Africa, I made this same point to President 
Mbeki and Foreign Minister Zuma in South Africa, to President 
Moi in Kenya, to President Museveni in Uganda, and everywhere I 
went. I made the same point in Mali because we do not want to 
derail this conference. But these issues could derail it and 
make it harder for us to participate unless they are dealt 
with.
    Senator Dodd. I appreciate that.
    If you talk about some of our greatest exports, I suppose 
the mind would quickly run to movies and Coca-Cola and the 
like, but I think our greatest export has been our commitment 
to human values, human opportunity, and human rights. I think 
we are noted for that, and certainly in the last half of the 
20th century, the United States' lead on the Universal 
Declaration of Human Rights, the Nuremberg experience, which 
you know I have a strong personal interest in as my father was 
the Executive Trial Counsel in Nuremberg in 1945, the Genocide 
Convention. Senator Helms and I worked out some language 
finally after years and years of having that convention 
language around, not to the satisfaction of everyone, but we 
finally ratified it. So, there is a strong history and 
background of the United States really being the leader in the 
world on these issues.
    Senator Helms raised Chechnya. I appreciate, by the way, 
Jack Tobin. You have raised the issue of my constituent, and I 
do not want to turn this hearing into constituent service 
related matters, but I am very grateful for you raising it to 
that level. I appreciate it.
    Which brings me to the issue of the criminal court issue. I 
know you are in the process of thinking this through, and I 
know my colleague from North Carolina has some very strong 
reservations, to put it mildly, about what the implications 
could be for an international criminal court.
    But I would hope, given our long history and involvement in 
these issues as we enter the 21st century, and given the 
problems that emerge around the globe, there may be a way for 
us to be an active proponent of the creation of an 
international criminal court. I am not satisfied that the 
present document is any one that we ought to ratify or support, 
but I would hate to see us walk away from it entirely and sort 
of relinquish the ground to others, given the leadership we 
have shown over the years.
    My father used to say--and I do not know if he was right or 
wrong, but he always felt that had there been an international 
court in the 1920's and 1930's after World War I, there might 
have been a way to stop the horrors that occurred during the 
Nazi regime. If there had been a place where the issues could 
have been raised about the genocidal behavior of Hitler, it 
just might have avoided it. You can argue as to whether or not 
it would have occurred.
    But the idea in the 21st century that somehow we are going 
to relegate a decision to others on something so fundamental, 
something we are so associated with as a Nation worries me a 
great deal. I wonder if you might just comment on where we are 
and whether or not there is still an opportunity for some 
discussion about how we might frame this debate and discussion, 
other than, with all due respect, the Servicemen's Protection 
Act, which I worry about the implications of that.
    Secretary Powell. Well, as you know, President Clinton 
signed----
    Senator Dodd. Yes.
    Secretary Powell [continuing]. It just before he left 
office, but even in the process of signing, he indicated that 
it was not something that he would send up for ratification at 
that time. The Bush administration also does not believe this 
is an agreement that should be sent up for ratification because 
of the impact it would have, in our judgment, on U.S. 
servicepersons serving overseas who might get caught up in this 
court.
    And I felt the same way as chairman of the Joint Chiefs of 
Staff, sharing all the values that you have just discussed, 
Senator Dodd, but there is a fundamental constitutional right 
that our youngsters have with respect to how they should be 
held accountable for their actions under our laws. I was never 
able to quite square what the ICC might cause to happen with 
respect to the rights that our youngsters should enjoy under 
our constitutional system.
    I am always willing to listen to new ideas and new 
thoughts, but I had difficulty with the ICC as chairman of the 
Joint Chiefs of Staff when it was emerging, when it was being 
talked about, and I still have problems with it, as does the 
Department of Defense.
    So, at this point, we signed it so we can participate in 
some of the work that goes on with respect to the development 
of such a concept, but the administration will not be sending 
it up for ratification.
    Senator Dodd. I would worry as well about our servicemen 
and women. But I happen to believe what the court did with Mr. 
Milosevic and others, for instance, played a tremendously 
valuable role. I am fearful we are going to see more of these 
types, the Osama bin Ladens and others around the world. To the 
extent that we can play a leadership role in providing an 
international forum where these thugs are brought to justice is 
something that I would like to see my country associated with.
    Secretary Powell. And we do, Senator, with specific 
tribunals for specific issues and areas, such as the 
International Criminal Tribunal for Yugoslavia.
    Senator Dodd. I thank you.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Senator Helms. Before you start the clock on Senator Lugar, 
we have been talking about three chairmen of the Foreign 
Relations Committee. No. 4 is to my left, and he is not to my 
left normally.
    Dick Lugar was one of the fine chairmen of this committee. 
You are going to be interrogated by a good former chairman.
    Senator Lugar. Thank you.
    Senator Dodd. We got an authorization bill done when you 
were chairman.
    Senator Lugar. I appreciate this recognition by all the 
chairmen who are here today.
    Secretary Powell, I want to thank you for the strong 
statements you made about the African Growth and Opportunity 
Act. I think the boost that you and the Department are giving 
to that legislation is crucial. Its implementation has moved 
slowly, but perhaps is taking on speed. I just mention this in 
passing.
    Likewise, at the State Department your subordinates are 
working on the sanctions issue. I withheld offering legislation 
this year prior to making certain we are on the same page so 
that there can be strong coordination. Other Senators on the 
committee I know are very much interested in that subject also. 
So, as you can give us a heads-up, we would appreciate it.
    Secretary Powell. Thank you, sir. We will.
    Senator Lugar. I want to mention specifically in Macedonia, 
the point you have made about the potential for NATO troops to 
be in the disarmament role. As I understand the political 
situation--you may be more up to date on this--the negotiations 
have not gone well in the last 24 or 48 hours in large part 
because some of the Slavic leaders of the government have 
become more intransigent, even suggesting a military solution 
is a better idea than concessions to the Albanians.
    The Albanians, who are still holding certain of the 
villages, apparently are giving the impression that they are 
prepared to be disarmed by the NATO peacekeepers, wherever they 
are positioned. But their negotiating position is very strong. 
They want a Vice President of the country, for example, an 
Albanian to be part of this process, and various other 
concessions to the Albanian minority that apparently some of 
the Slav folks find unacceptable.
    I am wondering if the politics of the situation--and if we 
are pursuing the political solution you and the President have 
talked about--do not dictate some recognition of where those 
negotiations stand and, in your own deft way, weighing in to 
make certain that this does not fall apart. It is the same type 
of antagonism that has been very clearly observed in Bosnia and 
to some extent in Croatia before that. To go through a repeat 
as a spectator of this crisis would be tragic because all the 
consequences would be more difficult.
    Do you have any comment?
    Secretary Powell. You have very accurately described the 
current state of negotiations of the last 24 to 48 hours where 
the positions are well known and fairly entrenched. We are 
working hard to find ways to bridge these differences of 
opinion or to find compromises. I do not want to say too much 
in this hearing, but we are also looking for others who are 
respected by both sides to come play a role in bridging these 
differences.
    Senator Lugar. Other countries that might----
    Secretary Powell. Other persons from other countries who 
are well respected by the two sides and have experience in 
bridging these kinds of differences to come in and see if they 
can keep this process moving forward.
    But it has been a tough 24 hours, and some of the demands 
that the Albanian side has put down simply are unacceptable to 
the Slav side, and vice versa. So, we have got to try to find 
ways to bridge this, and we are doing everything we can do to 
do that.
    Senator Lugar. Great.
    Let me ask about NATO. The President's Warsaw speech, 
outlining from the Baltics to the Black Sea and a Europe free 
and whole, was very forthright. And you have been, too. But I 
just want to review the roster.
    I agree with Senator Helms that the accession to NATO of 
the Baltic states is extremely important, and I am hopeful that 
occurs in Prague. You have indicated the readiness factor, the 
door is open.
    But nevertheless, U.S. leadership is absolutely imperative. 
The nervousness of some of our European allies regarding that 
is palpable, and without a very, very strong United States push 
from here on to Prague, it is likely to falter, which would be 
tragic.
    Slovenia and Slovakia are barely mentioned because it is 
assumed that Slovenia is going to be a member and Slovakia most 
probably. I hope that is the case in both situations.
    The southeast Europe situation is more complex. My own view 
after seeing the Bulgarians, as they came through to see you 
and others in the State Department, is that joining NATO is 
very important. I am unable to trace exactly the implications 
of the weekend election of the former king and the government 
that is about to be produced and what this means. Information 
for the committee about your impressions of the evolution of 
government in Bulgaria would be very helpful.
    Obviously, Romania is more murky. But I saw a piece by Bill 
Odem in the Wall Street Journal this morning, and I thought it 
was very good that he suggested both countries are important. 
Even if 2002 is not to be the time for formal invitation, very 
clearly some type of conditional invitation needs to be 
involved so that as they progress to the point where they meet 
the membership criteria, it happens, as opposed to being 
speculative. Because the filling in of southeastern Europe is 
important and those two countries are basic to that.
    My question today is twofold. First, very little mention 
has been made of Ukraine in all of this. I mention it because a 
delegation from Ukraine has visited me under the auspices of 
the Center for Democracy. It is in town now, including 
representatives of the government, President Kuchma, and three 
members of the Rada, who are influential. The impression they 
are giving is not that they are looking for membership, but 
clearly trying to strengthen the ties of security with the 
United States. They are trying to make certain that nothing has 
been occurring in Ukraine that weakens the desire of everybody 
in the country for independence and that independence is 
perceived to be part of Europe and very close to us as their 
major advocate.
    This is why I am hopeful that further exploration may take 
place in your Department with regard to Ukraine. Now, I 
understand the implications of all this and you do even better. 
But it just seems to me that this ought not to be off the map 
as we are talking about a Europe, whole and free.
    Even more complex, what is to be done with regard to the 
Balkan states? Clearly we discussed earlier the fact that 
Albania, Macedonia, Kosovo are all wrapped up now in a crisis 
that you are working on even as we speak. So, it is a stretch 
to think in terms of membership when you are talking about 
states that are in potential conflict and difficulty.
    I am wondering if there is some road map that you or others 
have in mind as to how the criteria for these states fit any of 
these conditions. Even if we were to say in the extremity, 
Kosovo is not a proper candidate, under what conditions would 
Kosovo ever be a proper candidate, or Albania, or Macedonia?
    In other words, as we are talking about keeping the door 
open and maintain the criteria, how can we make sure that each 
of these countries knows that, as well as our European friends, 
that we have this idea of the whole Europe and the eligibility 
criteria that people measure up to them and we back them?
    Do you have any comment about this?
    Secretary Powell. Let me start to respond by going to one 
of your first points, that the United States has to show 
leadership. You are quite right. We will do this between now 
and Prague 2002.
    To some extent, I think the President did this very 
effectively last week by making it clear that zero option is 
out. That was a decision really that the alliance came to last 
week, that zero option is out. It is not stated that way. So, 
yes, I would say that there is no doubt--I do not know of any 
of my colleagues who are going to stand up and try to defend a 
zero option any longer as a result of what I heard last week in 
NATO councils, the President's Warsaw speech. There may be one 
of them out there of the 19, but I cannot tell you who it is. 
So, what was essentially done last week was take zero option 
off the table.
    Over the next year and 4 or 5 months, slowly but surely a 
consensus will develop, and it will be a consensus that will 
have a strong component of U.S. leadership as to what seems to 
make sense for Europe and for the alliance. Senator, you know 
all the permutations, big bang, little bang, middle bang, low 
option, high option. They are all on the table. Over time, U.S. 
leadership will be asserted as to what we think makes sense.
    With respect to Ukraine and the states you talked about, 
some of which are not yet nations, such as Kosovo, Ukraine is a 
challenge right now. The government is going through some 
difficult times, but we made it clear to Ukrainian leaders that 
we believe they belong to the West as well, and we want to help 
them. It is not a matter of NATO membership, but there are 
other ways that we can interact with Ukraine. We can help them 
with their economy. We can make sure that they understand what 
is expected with respect to human rights and democracy and 
accountability of everybody within a society no matter how 
high. So, we can help them become a more Western inclined, 
European inclined, European community inclined nation.
    In due course there may be a period, 2004, 2006, 2008, when 
these other countries have met the standards of democracy that 
are expected of a NATO nation, are integrated into the economic 
system that drives all NATO nations, and make a contribution to 
the alliance. There is a logic to bringing them into this 
political and defensive military alliance.
    Senator Lugar. Thank you.
    The Chairman. I hope Slovenia comes quickly.
    I yield to the Senator from Florida, Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    I wanted to followup on your line of questioning, Mr. 
Chairman, with regard to the missile defense. I would be 
curious as to your response, Mr. Secretary, to what the 
chairman had suggested, which is why would the testing of a 
missile defense system break the ABM Treaty.
    Secretary Powell. It depends on the nature of the test. If 
you run a test on computers or without actually putting 
components together, it probably would not, but there comes a 
point in the development of a system where, when you start 
putting components together and you start testing that system 
in certain modes, where the treaty is rather precise. And there 
will be little disagreement that you have hit a limit specified 
in the treaty, and at that point, something has to be done. You 
either stop the development or you get out of the condition 
that is provided for in the treaty.
    I was asked on television this past Sunday, well, are you 
guys not just interested in getting out of the ABM Treaty? 
Somebody accused us of that. And my answer was, if the treaty 
permitted us to do what we needed for a limited defense, we 
would not want to get out of it. But it constrains us.
    We are not trying to put in place a defense of the kind 
that should cause Russia and China to have sleepless nights. We 
are not trying to put in place a missile defense of the kind 
that the ABM Treaty was intended in 1972 to constrain and keep 
from happening. It is quite a different thing.
    Therefore, we think that the Russians and others should 
have an open mind to designing a new strategic framework that 
would either set aside or put in place a new arrangement or 
give us a codicil or a protocol, something which removes these 
constraints that keep us from going in a sensible direction to 
deal with the kinds of new threats that are out there.
    Claims that the Russians will suddenly break out in an arms 
race and start doing this, that, and the other I think are a 
bit overstated, even by the Russians, even when they say it, 
because if there was no ABM Treaty right now, if it went away, 
if somebody came up and said, we just discovered it is null and 
void and has been since 1972, would this cause Russia and China 
suddenly to do something that they were not planning to do 
yesterday merely because the United States is pursuing a 
limited missile defense option? I do not think so. I do not 
think so. I think the transparency that exists in our society 
would be such that their actions would be conditioned on what 
we are doing, not what their greatest fears might be.
    Senator Nelson. Well, let us take some specific examples. 
For example, in the boost phase, the Aegis system off of our 
ships, the testing of that. Would that be a transgression of 
the ABM?
    Secretary Powell. There will come a time where if it is 
tested in an ABM mode, it would bust the treaty. I do not know 
at what point that occurs, and I would rather yield to my 
colleagues and experts in the Defense Department. But there 
will come a time when all of these technologies ultimately, 
when you test them in an ABM mode, will violate the treaty.
    Senator Nelson. Well, let us take another example. In the 
middle phase, on such a thing as a laser from a flying 747, 
would that be a contradiction of the ABM Treaty? The testing of 
that laser?
    Secretary Powell. If it is tested in an ABM mode with other 
elements, such as the detection element, it puts it all 
together in an ABM mode, my understanding is that you are 
running against the constraints of the ABM Treaty.
    Senator Nelson. All right. Let us take the final phase, 
which is the reentry phase, the existing test that we have 
going from California to Kwajalein Island. No one has suggested 
that that is a violation of the ABM Treaty.
    Secretary Powell. No.
    Senator Nelson. Yet, that is preliminary in our research 
and development before we would ever get to a decision about 
deployment. So, when in that research and development, that 
testing, does it become a violation of the ABM even on the much 
more sophisticated system of the reentry phase of knocking down 
an incoming warhead?
    Secretary Powell. I would rather not guess about individual 
systems, and I would rather yield to an answer for the record 
or for the Defense Department and the experts who monitor these 
tests to make sure they are treaty compliant to answer your 
specific question, Senator.
    But my knowledge of it from previous experience and my 
current responsibilities is when you start putting components 
together that puts the whole system into an ABM mode, and it is 
clear that it is in an ABM mode, that is when you run into the 
constraints of the treaty.
    Senator Nelson. What the chairman had suggested which I 
find most compelling is the fact that you can continue a robust 
R&D phase without the violation of the treaty and that clearly 
we ought to be doing that because we cannot deploy something 
that we have not developed. It seems to me that the 
administration might be getting the cart before the horse to 
say that we are at a point that we are going to deploy when, in 
fact, we have not developed it, and therefore that this is 
going to cause this immediate international diplomatic crisis 
by virtue of the ABM Treaty having been violated.
    Secretary Powell. Of course, we cannot deploy something we 
have not developed. But what the administration is saying to 
our friends and to our allies and others and saying to the 
Congress is that as you move down this track of research, 
development, testing, prototyping, and then ultimately 
fielding, there will come a point along that continuum--and it 
will be at a different point for different weapons systems, 
different technologies--where you are going to run into the 
constraints of the treaty.
    We want to give fair warning that when those constraints 
are hit, we will have to make a judgment as to whether we will 
stay within those constraints, go no further, or we have to 
find a way to get around those constraints. And that is what we 
are talking to the Russians about who is our partner in the 
treaty.
    Senator Nelson. Mr. Secretary, you have summed up my 
feelings most accurately when you said we cannot deploy 
something that we have not developed. We could deploy the Aegis 
system in the boost phase with some tweaking. We are developing 
the laser system, and we are continuing the testing on the 
final phase, the descent phase. I agree with you. If we 
approach it in that way, it seems to me, as a country boy from 
Florida, that is the common sense way to approach what could be 
a very valuable system for the protection of this country, 
missile defense, if and when it is in fact developed.
    The Chairman. Will the country boy yield for a point of 
clarification?
    Senator Nelson. I certainly will to my chairman.
    The Chairman. Are you saying, Mr. Secretary, that the 
national missile defense being contemplated is a limited 
defense? Because the President says three things. He says he 
wants to protect against rogue nations, protect our allies, and 
protect against an accidental launch, which by definition is 
not a limited defense. Against an accidental launch, you need a 
worldwide system. So, the reason why many of us get confused is 
we do not know what the devil you are talking about. Are you 
talking about a limited defense which would preempt developing 
a system against an accidental launch?
    Secretary Powell. We are talking about a limited defense 
that would protect--however it is deployed and whatever 
technologies and whatever systems Secretary Rumsfeld and his 
colleagues come up with, that would defend that which we chose 
to defend against a limited number of missiles coming at that 
system.
    The Chairman. Well, that is very encouraging.
    By the way, as the Senator from Florida knows, you can test 
airborne lasers. It just depends on the target whether or not 
you violate the ABM Treaty.
    Secretary Powell. That is what makes it whether it is in an 
ABM mode or not.
    The Chairman. I thank the Senator for yielding.
    Senator Nelson. Well, I thank my chairman.
    I would like to followup on something that my other 
chairman, the Senator from North Carolina, had stated. He 
expressed his concern in his opening comments, and I want to 
associate myself with his remarks of being concerned about the 
label of ``trustworthy'' with regard to Mr. Putin. I would like 
to have the value of your thoughts about such a label.
    Secretary Powell. Well, the President spoke clearly about 
his view of Mr. Putin after their meeting, and I do not have 
anything to say about that.
    Let us put it in perspective. This is a President who 
walked in the room with that gentleman and met him for the 
first time and laid down his markers with respect to missile 
defense, with respect to the constraints of the ABM Treaty, 
with respect to Chechnya, with respect to proliferation, with 
respect to the fact that he wanted to welcome the new Russian 
Federation, as it is emerging, into a Western relationship. He 
wanted to help them with economic development, with the rule of 
law. So, there was nothing off terra firma about the 
President's performance in that 1 hour and 40 minutes. He went 
in there strong. He came out strong. And he met a man who is 
strong as well, who exchanged his views and presented the 
positions of his nation.
    The President I think communicated to the world that this 
is somebody I am going to be working with, dealing with, and at 
least out of this meeting, we emerged with a relationship of 
trust, and I look forward to greeting him at my ranch in 
Crawford, Texas. So, I think a little bit too much is being 
made of this language.
    Just remember, the President went in there and made it 
clear what he believed in and what he stood for, and he did not 
blink in the slightest. And I would leave it at that.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Hagel.
    Senator Hagel. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    Secretary Powell. Senator Hagel.
    Senator Hagel. Let me congratulate you and the President 
and your team. I thought your days in Europe last week were 
effective, direct, to the point, well received. I thought you, 
the President, your team fulfilled every expectation and 
beyond. So, thank you for the job you did.
    I want to comment on a couple of points that have been made 
here and then ask some questions. Picking up on my colleagues 
from North Carolina and Florida's comments regarding the 
President's analysis of trustworthiness. I was not in that 
room. Most of us in this room I guess were not. I do not know 
where you were. You were not. So, I put some confidence in the 
President's personal analysis and I take the President at his 
word there.
    But more important than that, it seems to me what the 
President did here is he placed some expectations on this 
relationship between the two of them, and I do not find that 
altogether that disturbing. As a matter of fact, I think 
expectations are not all bad.
    Something else that I think this President needs to be 
congratulated for in his first 6 months--and his directness in 
Europe with our allies and friends puts some emphasis on that--
and that is his plain, straight talk. I have believed, over a 
long period of time in all the different things I have done in 
my life, that the benefits of strategic ambiguity are often 
overblown, overstated, overemphasized, and overvalued. Nations 
have gone to war over strategic ambiguity, and it has not been 
all that long that we have had to deal with some of that. I am 
not so sure--this is not the right forum for that--that we 
might not have found ourselves in Desert Storm if we would have 
had a little more direct dialog with Mr. Saddam Hussein.
    But I wanted to at least go on the record in saying that I 
think what the President did, how he handled himself, and his 
analysis of that relationship is one that does put some new 
expectations into our relationship. And that is good.
    I also want to go back to something else that was said and 
has been bandied about here this morning. This is not the right 
forum for a treatise, lecture on missile defense. But, Mr. 
Secretary, generally it is my understanding that we are working 
through our missile defense process--and I might remind my 
colleagues here that the Senate voted something like 97 to 3 a 
couple of years ago on a resolution about national missile 
defense. That somehow gets overlooked when we start talking 
about missile defense.
    There is a series of 19 tests, if I understand this, that 
we are working our way through, and we have now gone through 
three or four. I have never known a technology of certainly 
missile defense or any defense-related technology that has hit 
it the first, second, or third time during a test. So, I think 
we should not overlook that this is an ongoing process and, 
again, I think it is 19 tests. It may be less, it may be more.
    The last thing I would say about this point is I have met, 
as many of my colleagues, over the last year with many of our 
European friends and allies, Prime Ministers, Foreign 
Ministers, National Security Ministers, Defense Ministers, all 
kinds of Ministers. I do not find any international crisis on 
this issue. I find a lot of questions, a lot of probing, a lot 
of misunderstanding, a lot of efforts to clarify what is going 
on, but I do not in any way sense an international crisis over 
this. So, whatever that is worth, I want to be on the record 
with those points.
    Now, we will get to what is most important, and that is 
this, your testimony. You said, Mr. Secretary, ``President Bush 
proposed and President Putin agreed to establishing a 
structured dialog on strategic issues, and the two Presidents 
charged Foreign Minister Ivanov and me and Secretary Rumsfeld'' 
and others with doing that.
    Could you develop that a bit for this committee? What does 
that mean?
    Secretary Powell. It means that Igor Ivanov, who is my 
counterpart--he is the Foreign Minister of the Russian 
Federation--and I, along with Secretary Rumsfeld and Minister 
of Defense Sergei Ivanov, will set up working groups that will 
discuss the threat, discuss proliferation efforts, discuss how 
to go about looking at the strategic framework, begin the 
dialog that the two Presidents talked about. President Putin 
said I think the ABM Treaty is still the centerpiece of the 
strategic framework, and we said, let us talk about this. Let 
us explore this and let us explore a lot of other things that 
relate to our strategic relationship. We have put proliferation 
and non-proliferation, counter-proliferation activities into 
that strategic framework. So, in the very near future, Igor 
Ivanov and Don Rumsfeld and Sergei Ivanov will be setting up 
these groups of experts to explore these issues under the 
overall direction of the Foreign Ministry and the Secretary of 
State's office.
    Senator Hagel. And that will include such things as you 
mentioned in your testimony, missile defense, offensive nuclear 
weapons, proliferation, essentially framing up the world that 
we live in today in the year 2001, not in the year 1972.
    Secretary Powell. Yes.
    Senator Hagel. Thank you.
    Further on in your testimony, you talked about the 
Presidents also agreeing to continuing their search for common 
solutions in the Balkans, Middle East, and so on. Then you 
complete this paragraph discussing common interests in 
developing the resources of the Caspian Basin. Our colleague, 
Senator Lugar, talked about the Ukraine.
    I would like to now broaden that a bit to Central Asia. 
Could you tell this committee what you have in mind in moving 
forward on the President's thoughts here on focusing on that 
very critical part of the world?
    Secretary Powell. It is a very critical part of the world. 
What I found in my discussions with my Russian colleagues and 
the President found in discussions with President Putin is that 
they are very concerned about that whole southern underbelly of 
the Russian Federation. We have nations that are coming out in 
that part of the world with no tradition of democracy, with a 
tendency toward authoritarian kinds of rulers. There is great 
potential for instability in that part of the world, terrorism, 
narcotrafficking, and we have to work with Russia to see if we 
can find common ways of approaching the problems of that 
region.
    It is also the source of energy, the source of oil, and we 
have to make sure that those resources can be tapped in a way 
where the wealth goes to the people of those nations, and that 
the energy can be brought out in ways that are not going 
through strategic points of strangle-hold that we might 
subsequently or in the future regret that we did not think 
about this more carefully. So, this was a subject of discussion 
between the two Presidents and it will be one of the major 
areas of discussion and exploration with the Russians as we 
move forward.
    Senator Hagel. I hope that will include, as I assume that 
you imply in your analysis and explanation, that we are taking 
the long view of that area.
    Secretary Powell. Yes.
    Senator Hagel. I think many of us are concerned--you and I 
have talked about this--that we get maneuvered out of that area 
not just on energy resources, geopolitical, strategic 
interests. Ukraine I think is a very key area, as Senator Lugar 
pointed out. You have responded to that.
    That leads me a bit in a different direction, but I think 
it is still key. I have got a minute or so left. That is the 
ILSA [Iran-Libya Sanctions Act] sanctions. I know this hearing 
is not about ILSA, but the issues that you have reflected on I 
think include Iran. We cannot talk about the Caspian Sea 
without talking about Iran. I know it is a delicate, difficult 
issue.
    But I would hope the State Department is going to put some 
effort into exploring possibilities here and not just roll over 
a 5-year deal and say, well, come back and see us.
    I would also hope that we could explore separating Libya 
and Iran on this. I do not think that makes much sense for a 
lot of reasons. The long view for the United States is we 
cannot afford to be maneuvered out of that area.
    The last question I would have is global climate change. 
You mentioned that in your testimony. Could you tell this 
committee a bit about what you intend to do at the Bonn KP-6 
meeting next month, and then anything that you would care to 
add regarding the Marrakech KP-7 meeting in November?
    Secretary Powell. On ILSA, we are exploring some options 
with respect to the length of the rollover period. As you know, 
we have benefited from your thoughts and guidance on this, and 
we are working with other Members of Congress now on that 
subject. It is a tough one with a lot of strong views one way 
or the other.
    On Kyoto, the President made it clear that he was 
committing the United States to working within the Kyoto 
process even though the process to date has produced a protocol 
in 1997 that we no longer find acceptable and we cannot move 
forward on that protocol. We will be sending our delegations to 
KP-6 and subsequently the KP-7 and even before then to meetings 
in The Hague at the end of this month with some of the ideas 
the President presented in his speech the Monday before he went 
to Europe on how we are going to use technology, how we are 
going to use the elements in the National Energy Plan to start 
to deal with the problem of global warming. We are hard at work 
within the administration right now, and there will be meetings 
today, frankly, to come up with some additional ideas that will 
show leadership on the part of the United States at KP-6 and 
then take it into KP-7.
    Senator Hagel. Thank you.
    The Chairman. Senator Kerry.
    Senator Kerry. Mr. Secretary, welcome. It is great to have 
you here.
    Secretary Powell. Thank you, Senator.
    Senator Kerry. If I could just followup on that quickly. It 
is not the area where I really want to spend the most time, but 
if I could just ask quickly, will the administration submit a 
plan specifically to KP-6?
    Secretary Powell. I am not sure how far along we will be, 
since it is only a few weeks away, whether I can say it is a 
fully fleshed out plan of every idea we have or whether we will 
be in a position, more likely I think, to indicate to KP-6 
where we are heading as opposed to a complete plan. That is 
what we are working on now. But I think we are going to try to 
go beyond where the President was in his speech just before he 
went to Europe.
    Senator Kerry. As you know, the Kyoto Protocol and the 
entire approach has moved away from the voluntary reductions 
embraced by President Bush in 1992 to mandatory. Will your plan 
embrace mandatory emissions reductions?
    Secretary Powell. I do not know yet. As the President 
indicated, he is looking at market-based options as part of our 
consideration. Nothing was taken off the table for our analysis 
and consideration. But at the moment, I am not aware of any 
mandatory based options that we are going to lay before KP-6.
    Senator Kerry. Fair enough.
    I know you do not need to be reminded, but just for the 
public record, I would remind everybody that all of the 
discussions of the last years have embraced market-driven 
solutions, emissions trading, various measurements of 
sequestration, and sinks and so forth. But they certainly 
embraced the notion that nothing will happen without mandatory. 
So, obviously, I think that is a critical question.
    Secretary Powell. I understand.
    Senator Kerry. Wearing my hat as chairman of the 
Subcommittee on East Asian and Pacific Affairs, if I can for a 
minute, now that you have briefed the allies on national 
missile defense [NMD] and had a meeting with the Russian 
President, are there immediate plans with respect to the 
Chinese particularly and our Asian allies in terms of the NMD 
program? Will the President meet prior to Asian-Pacific 
Economic Conference [APEC] with President Jiang Zemin or other 
Chinese leaders?
    Secretary Powell. I do not know if the President will have 
a chance to meet with Jiang Zemin before Shanghai. It is a 
question of scheduling, but there are no plans that I know of 
for a meeting before then. I may well have an opportunity to 
meet with Chinese leaders before Shanghai and we are looking at 
that now.
    Senator Kerry. Obviously, you do not need urging from us, 
but I would, nevertheless, respectfully urge you that I think 
time is important in the context of how that relationship is 
perceived, and I would hope that that would be something you 
would embrace sooner rather than later.
    Secretary Powell. As you know, Assistant Secretary Kelly 
did go to China to brief in May on our way of looking at the 
new strategic framework, and I have spoken to every Asian 
leader who has passed through my office recently. I had the 
Pakistani Foreign Minister yesterday. I also had the Japanese 
Foreign Minister this week and had a chance to discuss it with 
her. And Ambassador Armitage, Deputy Secretary Armitage, 
visited India as part of his travels on national missile 
defense.
    Senator Kerry. I would love to pursue that with you a 
little bit, Mr. Secretary, if we could, perhaps privately at 
some point.
    But on another subject, the North Koreans rejected the 
notion of any conventional force discussions. How will that 
affect your approach and where do you think that places the 
talks?
    Secretary Powell. I do not think it derails the talks in 
any way. They have essentially said they do not think this is 
something they want to talk about at this point. But I think 
all things should be in the agenda, and we are in contact with 
them and I expect discussions to begin soon.
    I think it is hard to move forward in this relationship 
with North Korea, this set of discussions with North Korea, 
without ultimately getting to the conventional force standoff 
that exists on the peninsula. It is sucking up a huge amount of 
their resources, resources they cannot really afford to apply 
to that. This is a country that is broke. It is destitute. It 
is starving. The last thing they need is this kind of force 
presence lurking over the peninsula and lurking over South 
Korea. So, in due course, it is a subject that has to be 
discussed.
    Senator Kerry. And you, obviously, intend to pursue those 
talks then as soon as possible and practical?
    Secretary Powell. Yes.
    Senator Kerry. Let me come back, if I may, to missile 
defense in Europe and a few questions. In answer to the 
chairman's question about limited defense, which I think is a 
very, very important definition and an important concept, that 
raises another question which is this new strategic framework 
that has been talked about. If indeed the defense is limited--
and I think it ought to be and I am glad to hear you say it 
is--how do you possibly talk about getting rid of MAD, mutual 
assured destruction?
    It seems to me that Mr. Putin made it very clear that if we 
proceed unilaterally, Russia will have no choice but to 
overwhelm. Overwhelming the system means you are in the same 
equation as we have been for 50 years. Even if you proceed 
multilaterally with agreement on the deployment, so that they 
are agreed to what you are doing and it is limited, i.e., a few 
missiles rogue, a few missiles accidental, a few missiles 
unauthorized, you still have the START II numbers and 
hopefully, depending on what your attitude is, the President's 
attitude about START III, we negotiate down. But you are still 
left with thousands of more nuclear warheads pointed at each 
other which is mutual assured destruction.
    So, have you explained this framework to the Europeans and 
perhaps could you even explain it to us now to understand how 
you do away with mutual assured destruction?
    Secretary Powell. I am not clear whether we would go to 
START III limits or just make a unilateral judgment that we can 
go to some lower level. At the end of the day, nuclear 
deterrence is something you put in the mind of an enemy. You 
deter them because they believe they will receive an 
overwhelming strike in return for anything they do.
    Senator Kerry. Which is mutual assured destruction.
    Secretary Powell. Mutual assured destruction.
    Senator Kerry. So, in other words, we would not be doing 
away with it.
    Secretary Powell. You cannot entirely do away with what has 
been known as mutual assured destruction. Some would argue that 
the term ``MAD'' really came out of the mid-1970's when you 
linked it to the conventional conflict in Europe that would 
start with a conventional war that we were starting to lose, 
and then somebody started to use tactical nuclear weapons, and 
then the whole thing spread to a strategic thermonuclear 
exchange, which was mutually assured destruction. Others would 
argue that what we are talking about now, which is no longer 
linked to that kind of a conflict, should go by a different 
term, but nevertheless, it means, in my judgment anyway, that 
you keep enough weapons so that you will always be able to 
deter anyone else who is planning to strike you.
    If I were a Russian planner and I had a certain number of 
missiles--let us say it is START II, 3,000 to 3,500, that 
range--and I saw the Americans putting up a limited missile 
defense, and after I examined that defense, it looked like it 
was principally directed against some very, very unstable, 
irresponsible sorts of states, and it really could not affect 
very significantly my deterrent plans with a force level of 
3,000 or 1,000--pick your number--and if I saw that that 
limited defense really did not significantly in any way, no 
matter how the Americans deployed it, no matter where they put 
it, whether it was sitting in Europe, whether it was sitting 
off the coast of some Asian country, it really could not affect 
more than a few of my missiles in my strike plan, it is not 
clear to me why I am going to start spending a lot of money to 
break out of START II or START III and start building up or 
MIRV'ing missiles again.
    There is such transparency to what we will be doing, 
because of the nature of our system, because we are not hiding 
it, that it is not clear to me why a Russian planner could 
successfully walk in and say to Mr. Putin, hey, guess what. 
Rather than fixing our economy, rather than investing in this 
or investing in that, I have got a great idea. Let us double 
the size of our strategic force. Why? I do not think Mr. Putin, 
when faced with that, at the end of the day would give an 
answer that says, yes, let us spend the resources on that.
    Senator Kerry. Mr. Secretary, I agree basically with that. 
Particularly I think that is why an argument can be made very 
forcefully that a multilateral approach to this with the kind 
of full consultation and shared abilities ultimately may be the 
best way to proceed.
    But as you well know, there is a theory called 
``breakout,'' and there are those in every country known as 
hard-liners or otherwise who are prepared to make trouble 
within their politics to argue that the potential for breakout 
has been developed, and therefore, strategic, long-term, 
careful planning requires them to maintain a similar capacity. 
That has certainly been the history of the cold war. Now, we 
are not in a cold war. Our hope is we can avoid that.
    But the fear so many people have--and they have expressed 
it in Europe and Mr. Putin expressed it the other day--is that 
if the United States moves unilaterally in ways that cannot be 
fully interpreted, then you could wind up threatening the START 
I/START II system which finds its basis in the ABM Treaty 
itself. So, when people declare the ABM Treaty dead and a 
preparedness to move unilaterally, I would assume you would 
say, absent the full evidence of what the system is going to be 
or that it is not something that other people say it is going 
to be, people are going to respond out of perceptions and fears 
and even----
    Secretary Powell. And the way to capture those perceptions, 
those fears, that anxiety, those hard-liners in your regime 
that might want to push for breakout is to find a way to move 
to a new strategic framework together. That is what we want to 
do.
    Senator Kerry. I thank the Secretary.
    The Chairman. The time is up.
    The Senator from Oregon, Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Mr. Secretary, it is good to have you back before this 
committee.
    Secretary Powell. Thank you, Senator Smith.
    Senator Smith. We are under new management, but we have a 
good man as the chairman, just as we had a good man as our 
former chairman, and I am a friend of them both.
    Mr. Secretary, I was intrigued by your comment that NATO 
does not go away because people keep wanting to join it. I just 
returned from the North Atlantic Assembly in Vilnius, 
Lithuania. I returned from that very much aware that the NATO 
that protected my childhood and won the cold war is not the 
NATO that we have today, that it is evolving, it is changing.
    I think I shared with you, when you visited me in my 
office, that when I asked military leaders to compare their 
experience between the gulf war, in which they served with you, 
versus the Kosovo conflict, in which they performed under the 
umbrella of NATO, they would never say on the record what they 
said to me in the office, I suppose. But they, with no 
exceptions, said do not ever make us do it that way again.
    The point they were making is, under the NATO approach, you 
could never separate the politics from the military objective. 
You literally had Presidents and Prime Ministers and 
Chancellors picking bombing targets and you had a NATO 
announcing ahead of time it would not use ground troops. We 
were just going to do this in a sanitary way from 50,000 feet. 
I talked to a lot of military folks who just said, if you are 
going to do it that way, do not do it.
    I come back from this Vilnius experience believing that 
NATO is becoming an auxiliary of the United Nations, that the 
alliance, while everybody wants to join, everybody is coming 
with an agenda, and it has nothing to do with defense anymore. 
It has to do with European politics and European ego.
    My concern with the European Security and Defense Program 
[ESDP], for example, is that it introduces a new and dangerous 
level of bureaucracy and politics to an institution already 
overburdened with it. It further complicates NATO's 
effectiveness because the memberships will always be different. 
I think it creates a Potemkin village because the budgets are 
always declining.
    So, I am really looking to where the administration thinks 
NATO is going.
    Having told you my fears, I will admit my surprise when 
President Bush met with Prime Minister Blair at Camp David and 
announced that we are just fine with ESDP. Maybe we are. Maybe 
what we are saying is that we know this is a belly flop that is 
going to happen and we are willing to watch it, but we think it 
unwise to stop it.
    Is that what the administration is saying? Because I must 
tell you I have genuine fear about NATO's effectiveness if we 
are just a debating society that is willing to substitute words 
for weapons.
    Secretary Powell. On Kosovo, I think if there had been the 
right kind of political leadership, the battle probably could 
have been fought another way without taking things off the 
table.
    But NATO, at the end of the day, is a consensus 
organization, where now 19 sovereign heads of state make a 
consensus decision as to what it will do. It was not like 
Desert Storm where essentially President Bush for one said I am 
going to do it and come with me and got the U.N. to come with 
him and then like-minded nations joined a coalition that was 
essentially led directly by the United States without that kind 
of consensus requirement.
    But I would not say that it is incapable of action. Right 
now, as we sit here, NATO, all 19 nations represented in 
Brussels, is making judgments as to what they will do or not do 
in Macedonia. So, I think it can be made to work with proper 
leadership with all countries coming together in response to 
that leadership.
    I also think that with respect to ESDP, this is a useful 
initiative on the part of the Europeans. We have encouraged 
them for years to be able to do something on their own and do 
not always turn around and look at us. I have heard members of 
this body say why does it always have to be us. Well, with 
ESDP, NATO gets first choice. Any crisis that comes along, if 
NATO wants it, if the United States wants to lead it, be 
involved in it, it is NATO's to do. If, for one reason or 
another, the United States feels, or NATO as an alliance feels, 
this is something within the capability of the Europeans to 
handle, so let them handle it, then the ESDP can do that.
    Now, whether or not they ever put forward the capability so 
that they could do it effectively remains to be seen. We are 
not wishing for a belly flop. I want it to be successful, and 
they are determined to move in this direction. Since the 
Europeans felt that they wanted to move in this direction and, 
to some extent, it was because of the way they saw themselves 
in the Kosovo experience--they were not able to do things as 
the European Union--then I think we should encourage them to 
move in this direction as long as it does not take away from 
the value of NATO and the primacy of NATO for first call on 
response and as long as they add capability.
    We have made this point to them repeatedly. If capability 
is not added and 2 years from now they declare this force 
operational and the first time somebody blows the whistle, it 
is not able to perform, then it will have failed.
    Senator Smith. Well, I am on record as supporting their 
effort as well under the conditions you described. But at some 
point, when budgets continue to diminish, we got to call humbug 
on this because it seems to me Petersburg tasks frankly do not 
contribute much. But if they are more empowered politically in 
their own budgetary processes to contribute to NATO by setting 
up a separate institution that works with NATO, well, fine. But 
that is not where the money is going. I just think some of us 
need to say here in very provocative terms, which I am 
intentionally being provocative, look, words, institution 
building, are fine, but they do not deter aggression and they 
do not make tyrants tremble.
    Secretary Powell. I will use your statement very 
effectively. Thank you.
    Senator Smith. Thank you. I invite you to. I urge you to.
    I voted with Joe Biden on everything President Clinton 
wanted. I even voted with John McCain when we tried to get him 
to pull back on----
    The Chairman. And that is even more radical than voting 
with Biden.
    Senator Smith [continuing]. Because I wanted to be able to 
say to my kids when holocausts are produced, when ethnic 
cleansing goes on, I do not want to be sitting on my hands. I 
appreciate the leadership you gave to this new administration 
saying we went in together, we will go out together.
    My concern about going out together is this. The Europeans 
are afraid of new states in Europe, little states developing in 
Europe. So, they do not want to have anything to do with an 
independent Kosovo because they think that leads to other 
things. I understand that.
    The people on the ground, the Serbs, are saying we want it 
back or in some form still have a claim. The Kosovar Albanians 
want only independence. Our policy I felt under the last 
administration--and I said this before in earlier hearings--
seems to be we just hope that you all can get along and that 
something will evolve that will get us out of here.
    It seems to me the only way out is ultimately for us to 
pick a side and say this is the outcome, and it has to be one 
of the outcomes desired by the people who have to live there. 
The Kosovar Albanians are only going to accept independence. If 
we go along with the Europeans on autonomy, that means there is 
no way out because we will have to enforce autonomy because 
that is not what anybody on the ground wants. It seems to me we 
need to begin forcing the debate to say independence is how 
this is resolved if we ever want to get out of there.
    So, that is my own belief, and if you want to object to 
it----
    Secretary Powell. Let me just say you captured the 
sentiment I think of the Kosovar Albanians quite accurately.
    We are concerned that there may be a rush to independence 
that could be very unfortunate in current circumstances in 
light of the current situation. So, we are focusing on the 
upcoming election in November. Let us use that election and the 
democratic processes associated with that election to start 
capturing the aspirations of these people and start putting in 
place institutions of government, and let us at least hold out 
the hope that they might be able to find some arrangement with 
Serbia that will allow them to stay within that. Let us not 
rule it out yet.
    I would not in any way suggest that you did not accurately 
capture the feeling of Kosovar Albanians, but we think it would 
be premature right now to say that is what is going to happen. 
Let us have the election first. Let us take this time to have 
the election.
    Senator Smith. I think the Europeans need to get used to 
the idea of independence unless they want to use ESDP in a very 
formal way there in about 50 years.
    If I may, Mr. Chairman, one other thought I had coming back 
from central Europe. I fear that with respect to NATO 
enlargement and particularly EU enlargement, we are saying nice 
things to these folks and have no intention of expansion. With 
the Irish vote recently to object to European expansion to 
countries we have already admitted to NATO, I came away 
thinking how do we help these people who want to transition 
from communism to capitalism.
    It occurred to me that maybe they, instead of trying to 
join the European Union--I mean, they just left socialism. Why 
do they want to go back into a reduced form of it? It seems to 
me that there ought to be a central European Union that has 
lower taxes, less regulatory burden, a union of nations there 
that can produce something that will give them a sense of a 
place at the table that they may never get as supplicants to 
the European Union because they are not going to be admitted. I 
think they are just blowing smoke. I think we should start 
being honest with people and maybe help some of these countries 
to develop some trading relationships that will help them 
develop more quickly from communism to freedom.
    So, I throw that out for your consideration because it 
seems to me what the European Union needs is a central European 
competitor.
    Secretary Powell. The President spoke strongly in support 
of expansion of the European Union. I had not given thought to 
a central European Union. I would have to give it some thought 
to give you an informed answer, Senator.
    The Chairman. One of the things, as usual, being an 
Irishman, the Europeans overruled the Irish and said that in 
2002 that they would make the decision. In 2004 it would become 
effective. But I am a skeptic as well as you, and we will see 
what happens.
    You have been kind with your time. I would like to conclude 
with two very brief comments.
    As you know, just for the record, you know Bruce Blair at 
the Center for Defense Information [CDI]. He indicates that the 
Russian planners do fear a defense because he thinks that their 
survivable forces may only be in the 100 to 150 range right 
now. So, it is something at least people who are very pro-
defense folks are raising.
    Even if the Russians--and I agree with you--are not likely 
to, in the scenario you laid out where the Defense Minister 
goes in and says to Putin, by the way, we have got 3,500 
warheads and, by the way, the Americans can shoot down 20, so 
let us go ahead and blow up our agreements with them, I think 
you are probably right. But the Chinese only have 18.
    Secretary Powell. And they are planning to increase no 
matter what we do.
    The Chairman. By the way, in terms of political decisions, 
was the decision not to go to Baghdad not a political decision?
    Secretary Powell. All decisions with respect to war at the 
end of the day are political choices.
    The Chairman. That is the only point I want to make. That 
is not a criticism. It really is not. And I have never second-
guessed that decision.
    Secretary Powell. I will be happy to defend it all over 
again.
    The Chairman. No, no, no. There is no need to.
    My only point is whether it was World War II and Eisenhower 
trying to hold the alliance together and the political decision 
was made as to when to invade, where to invade, and how to 
invade, I am not so sure that we ever get to a point where 
ultimately great generals also are not great politicians in the 
best sense of the word. I mean that sincerely. And you are one 
of them.
    Senator Smith. Mr. Chairman, in fact, I think it was 
Clausewitz who said war is politics by other means. I was not 
suggesting you can ever divorce it completely. But, man, I 
think we commingled it badly.
    The Chairman. One thing I would like to close with--and it 
will take less than 60 seconds--in the New York Times it was 
reported, I think yesterday or Sunday, that the administration 
is considering pulling out of the monitoring system that 
exists, the monitoring system to detect and identify nuclear 
weapons tests. Apparently some have suggested that continued 
participation in this system amounts to implementation of the 
Comprehensive Test Ban Treaty.
    I hope you will consider, if you have not already--my guess 
is you have--explaining to those folks at the White House that 
this is a needless concern. The CTBT cannot come into force 
unless the United States ratifies it and establishing an 
international monitoring system does not prejudice our right to 
determine when or whether we become part of that. So, I hope 
you weigh in on it.
    Secretary Powell. I do understand that point, sir.
    The Chairman. I know you do. I just wanted it for the 
record.
    I thank you very, very much. Do you have a concluding 
comment?
    Senator Smith. No, I do not.
    The Chairman. Thank you very much.
    Senator Percy. Just one quick closing comment as the former 
chairman of this great committee.
    The Chairman. Surely, Senator.
    Senator Percy. May I just simply say that in all of my 18 
years in the Senate, I have never seen such an outstanding and 
as large a group of staff members sitting behind the Senators.
    The Chairman. We need more help than you needed, Senator.
    Senator Percy. I would like to also say to the audience 
that I cannot remember a hearing held in the years I was 
chairman of this committee where we had such an enthusiastic 
and fine, outstanding group of people in attendance and the 
people outside the hearing room waiting--I cannot remember 
that.
    But I know we all appreciate very much the wonderful 
service of this man. We thank you.
    I do want to say to all of you, come to the Georgetown 
Waterfront Park meeting tonight.
    The Chairman. Thank you very much, Senator.
    We are adjourned.
    [Whereupon, at 12:20 p.m., the committee was adjourned.]
                              ----------                              


             Additional Questions Submitted for the Record


Responses of Secretary Colin L. Powell to Additional Questions for the 
                Record Submitted by Senator Jesse Helms

    Question. Should the EU have one permanent seat at the UN Security 
Council, rather than two (Britain and France)? Shouldn't the other seat 
go to Japan, given its large contributions to the UN?

    Answer. The Administration supports reform and judicious, limited 
expansion of the Security Council to reflect more accurately current 
political and economic realities. The United States is an active 
participant in the UN deliberations on this issue. Over several 
decades, through Administrations of both political parties, we have 
maintained our support for the addition of Germany and Japan to the 
Security Council as permanent members. Any restructuring of the Council 
will require amending the UN Charter, with ratification by at least 
two-thirds of the UN's member states, including the five permanent 
members of the Security Council. It is unlikely either Britain or 
France would support a revised Council structure that resulted in the 
loss of its permanent seat to accommodate a seat for the European 
Union. It is U.S. policy not to agree to grant the EU a vote on the 
Security Council either of or in addition to those wielded by EU member 
states. Progress in the OEWG has been limited and there is no realistic 
prospect of reaching consensus on reform of the Security Council in the 
near term.

                 EU COOPERATION ON POLITICAL LIBERTIES
    Question. How will you get the EU to act in a more honorable and 
cooperative fashion in dealing with us, especially on issues of 
political liberties worldwide where the Western democracies ought to be 
sticking together?

    Answer. We have regular and detailed discussions with the EU and 
its member states about political and other freedoms around the world. 
Although individual EU member state views may differ at times--both 
from ours and those of other EU members--the EU as a whole shares our 
objective to encourage the development of pluralist democracies with 
respect for human rights. We regularly work with the EU in the OSCE and 
other fora, for example, to advance our common human rights objectives.

                                BELARUS
    Question 1. When discussing the vision of a Europe that is both 
whole and free, one must not overlook the ongoing struggle for freedom 
in Belarus. Presidential elections are scheduled for September 2001 in 
Belarus. What are the U.S. and its European allies doing to ensure that 
these elections will occur, and that they will be free and fair?

    Answer. As the last dictator in Europe, Aleksandr Lukashenko has 
backed himself into a corner. He and his regime are shunned by the 
Euro-Atlantic community. Free and fair presidential elections present a 
way forward. A repetition of the undemocratic practices used to rig 
last year's parliamentary elections, which were not recognized by the 
U.S. and our European partners, will only further isolate Belarus. 
Together with the EU and OSCE, we are calling on the Belarusian 
authorities to carry out free and fair presidential elections and end 
intimidation of the opposition and independent media. We strongly 
support efforts by the OSCE, represented in Minsk by Ambassador Wieck, 
head of the Advisory and Monitoring Group, to ensure Belarus fulfills 
its commitment as an OSCE participating State to establish proper 
conditions for conducting free and fair elections. An international and 
domestic observation and monitoring program are essential, but alone do 
not make elections free and fair. We communicate forcefully and clearly 
that improvement in relations with the Euro-Atlantic community requires 
a return to democracy and an end to the climate of fear. Half measures 
or continuation of repressive policies will only prolong and deepen 
Belarus' isolation. We have also made our position clear to the Russian 
government, which; as of now, continues to support Lukashenko's 
dictatorship.

    Question 2. What is being done to support the democratic opposition 
in Belarus?

    Answer. In addition to political and moral support, we are 
providing over $12 million in democracy programs in FY 2001 to support 
the Belarusian democratic forces in their efforts to build a civil 
society, independent media and a democratic political system.

    Question. Given that section 244(b)(1) of the Immigration and 
Nationality Act (8 U.S.C. section 1254) explicitly permits TPS 
designation of any part of a foreign state (italics mine), please 
provide the State Department's rationale for opposing TPS for Chechnya.

    Answer. The State Department is in the process of developing a 
formal position on TPS for Chechnya. We are reviewing the situation in 
Chechnya, in order to determine whether a recommendation in favor of 
TPS is warranted. We will inform you of the outcome as soon as we have 
developed a formal position.
    The TPS statute does provide that TPS may be granted to ``part of a 
country.'' The USG has done so previously, designating Kosovo for TPS 
in 1998. We will continue to consider this issue in close consultation 
with the Department of Justice.
               implementation of the libertad act of 1996
    Question 1. Has WHA informed you of its findings of fact with 
respect to GSM?

    Answer. The WHA bureau and the Office of the Legal Adviser, along 
with other interested bureaus, have been implementing their 
responsibilities under Title IV of the Libertad Act. They will present 
each case for decision upon completion of the investigation and 
analysis of the applicable facts and law, as required by Title IV.

    Question 2. What, if any, additional information is needed for you 
to make a determination in this case?

    Answer. The Department of State has a long-standing practice of not 
commenting publicly on the specifics of Libertad Act cases. In 
accordance with the requirements of Title IV of the Libertad Act, each 
case is to be presented for decision upon completion of an 
investigation and analysis of the facts and the legal standards 
contained in Title IV. I have conveyed this request to the WHA bureau 
and to the Legal Adviser.

    Question 3. Will you ask your Legal Adviser and Acting Assistant 
Secretary for Western Hemisphere Affairs to present the facts in this 
case so that you can apply the law without delay?

    Answer. I have asked the Legal Adviser and the Acting Assistant 
Secretary for Western Hemisphere Affairs, working with other 
responsible bureaus, to bring this matter to a conclusion and to ensure 
that the law is implemented.

    Question. In light of NATO's scathing review of our Allies' failing 
to fulfill their force goals, what can we expect, of value to the 
Alliance, from the EU's effort to establish a security policy and 
military capability separate from that of the North Atlantic Alliance?

    Answer. We have made clear that a fundamental basis for our support 
for the European Security and Defense Policy is an expectation that it 
will result in a real increase in European military capabilities.
    We are confident that EU countries are indeed working toward this 
goal.
    There is one pool of European forces. The increase in capabilities 
which ESDP will bring about will also strengthen NATO.
    The development of ESDP will also increase the range of options 
available to the United States and its Allies to react to an 
increasingly diverse and unpredictable range of crises.

    Question. Will this EU initiative introduce into the architecture 
of Euro-Atlantic security little more than new institutions that will 
complicate, if not undercut NATO decision making?

    Answer. We are confident that EU countries are indeed working 
toward the goal of bringing about a real increase in European military 
capabilities through ESDP.
    NATO and the EU have agreed that the EU would only act when the 
Alliance as a whole is not engaged. In other words, it would always be 
NATO that decides first whether it chooses to respond to a particular 
crisis.
    NATO and the EU also share the goal of avoiding any unnecessary 
duplication of NATO assets and capabilities in the course of 
implementing ESDP.
                                 ______
                                 

Responses of Secretary Colin L. Powell to Additional Questions for the 
                Record Submitted by Senator Bill Nelson

                   MISSILE DEFENSE AND THE ABM TREATY
    Question 1. Why and how would the testing of a missile defense 
system break the ABM Treaty?

    Answer. As I mentioned during my testimony on June 20, development 
and testing in our Missile Defense program will, in time, ``bump up'' 
against the provisions of the ABM Treaty. The Department of Defense 
review of missile defense is still underway, and since no decisions 
have been made yet regarding the testing necessary for the remainder of 
Fiscal Year (FY) 2001 and FY 2002, it is premature to speculate on what 
testing would conflict with the ABM Treaty.

    Question 2. Would the ballistic testing from AEGIS ships violate 
the ABM Treaty? Would the testing of the Airborne Laser (ABL) on a 
theater ballistic missile be a violation of the ABM Treaty?

    Answer. Both the Navy Area and Navy Theater Wide (NTW) theater 
missile defense (TMD) systems, which incorporate the SPY-1 radar, were 
determined in the mid-1990s by the United States to be compliant with 
the ABM Treaty. Were the Department of Defense (DoD) to seek to upgrade 
either of these TMD systems, such testing would be reviewed again for 
compliance with the ABM Treaty's Article VI(a) prohibition on giving 
non-ABM systems the capabilities to counter strategic ballistic 
missiles or their elements in flight trajectory, and on testing such a 
system ``in an ABM mode.'' The testing of an otherwise-compliant Navy 
Area or NTW against theater range ballistic missiles is not constrained 
by the ABM Treaty.
    The ABL development program has not yet progressed to the point 
where a determination has been required concerning the ABM Treaty 
compliance of the prototype ABL. Assuming that the ABL program is 
deemed compliant with respect to use as a theater ballistic missile 
defense system, its testing against theater-range ballistic missiles 
would not be constrained by the ABM Treaty. Providing the ABL with the 
capability to counter strategic ballistic missiles or their elements in 
flight trajectory, or testing the ABL in an ABM mode, would raise 
compliance issues.

    Question 3. Will the planned flight test between the Marshall 
Islands and Vandenberg AFB violate the ABM Treaty? At what point, 
either during research and development or during the planned Integrated 
Flight Tests (IFTs), would we violate the ABM Treaty?

    Answer. The ABM Treaty permits the testing of fixed land-based ABM 
systems and their ABM components from agreed ABM test ranges. It is the 
State Department's understanding that, as currently configured, the 
BMDO program of Integrated Flight Tests (IFTs)--including IFT-6 
scheduled for Fall 2001--involving fixed land-based ABM components has 
been determined within the Department of Defense (DoD) as consistent 
with the provisions of the ABM Treaty. ``Research'' is not constrained 
by the ABM Treaty. Individual tests of the missile defense programs 
must be examined on a case-by-case basis to determine compliance with 
the provisions of the ABM Treaty. If DoD determines that modifications 
are required in the testing program for the fixed land-based missile 
defense system, then the modified flight-tests would have to be 
reviewed.

    Question 4. Would the Administration oppose the deployment of a 
missile defense system if it does not pass adequate tests? Will you 
participate in the decision-making process of such a system, 
considering the level of diplomacy required to ensure such a system 
actually improves global security? Would the Administration deploy a 
missile defense system if, in your judgement, it decreases global 
security?

    Answer. The President has stated that we have no interest in 
deploying a missile defense system that does not work.
    As the President's primary foreign policy adviser, I will of course 
be actively participating in the decision-making process regarding 
missile defense deployment, and in addressing the global diplomatic and 
security issues that would be affected by a Presidential deployment 
decision.
    We believe that deployment of limited missile defenses would 
increase global security by enhancing our ability to deter 
irresponsible behavior by rogue states. Should our deterrence efforts 
nevertheless fail, we will then be in a better position to defend the 
United States, our deployed forces, and our friends and allies.

                                   - 
</pre></body></html>
